<html>
<title> - HUMAN RIGHTS AT HOME: MENTAL ILLNESS IN U.S. PRISONS AND JAILS</title>
<body><pre>[Senate Hearing 111-975]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 111-975
 
     HUMAN RIGHTS AT HOME: MENTAL ILLNESS IN U.S. PRISONS AND JAILS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               ----------                              

                           SEPTEMBER 15, 2009

                               ----------                              

                          Serial No. J-111-45

                               ----------                              

         Printed for the use of the Committee on the Judiciary

     HUMAN RIGHTS AT HOME: MENTAL ILLNESS IN U.S. PRISONS AND JAILS




                                                        S. Hrg. 111-975

     HUMAN RIGHTS AT HOME: MENTAL ILLNESS IN U.S. PRISONS AND JAILS

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON HUMAN RIGHTS AND THE LAW

                                 of the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 15, 2009

                               __________

                          Serial No. J-111-45

                               __________

         Printed for the use of the Committee on the Judiciary


                  U.S. GOVERNMENT PRINTING OFFICE
66-207                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="0d6a7d624d6e787e796568617d236e626023">[email&#160;protected]</a>  


                       COMMITTEE ON THE JUDICIARY

                  PATRICK J. LEAHY, Vermont, Chairman
HERB KOHL, Wisconsin                 JEFF SESSIONS, Alabama
DIANNE FEINSTEIN, California         ORRIN G. HATCH, Utah
RUSSELL D. FEINGOLD, Wisconsin       CHARLES E. GRASSLEY, Iowa
CHARLES E. SCHUMER, New York         JON KYL, Arizona
RICHARD J. DURBIN, Illinois          LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
SHELDON WHITEHOUSE, Rhode Island     TOM COBURN, Oklahoma
AMY KLOBUCHAR, Minnesota
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
AL FRANKEN, Minnesota
            Bruce A. Cohen, Chief Counsel and Staff Director
               Matthew S. Miner, Republican Chief Counsel

                Subcommittee on Human Rights and the Law

                 RICHARD J. DURBIN, Illinois, Chairman
RICHARD J. DURBIN, Illinois          TOM COBURN, Oklahoma
RUSSELL D. FEINGOLD, Wisconsin       LINDSEY GRAHAM, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHN CORNYN, Texas
EDWARD E. KAUFMAN, Delaware
ARLEN SPECTER, Pennsylvania
                      Joseph Zogby, Chief Counsel
                 Brooke Bacak, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Coburn, Hon. Tom, a U.S. Senator from the State of Oklahoma......     3
    prepared statement...........................................   140
Durbin, Hon. Richard J., a U.S. Senator from the State of 
  Illinois.......................................................     1
    prepared statement...........................................   142
Feingold, Hon. Russell D., a U.S. Senator from the State of 
  Wisconsin, prepared statement..................................   185
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....     5
    prepared statement...........................................   187

                               WITNESSES

Bagenstos, Samuel, Deputy Assistant Attorney General, Civil 
  Rights Division, U.S. Department of Justice, Washington, DC....     8
Fuller, David L., Outreach and Housing Coordinator, Manhattan 
  Outreach Consortium, Brooklyn, New York........................    31
Lappin, Harley G., Director, Federal Bureau of Prisons, 
  Washington, DC.................................................     5
Leary, Mary Lou, Deputy Assistant Attorney General, Office of 
  Justice Programs, U.S. Department of Justice, Washington, DC...    10
Maynard, Gary D., Secretary, Maryland Department of Public Safety 
  and Correctional Services, Towson, Maryland....................    25
Randle, Michael P., Director, Illinois Department of Corrections, 
  Springfield, Illinois..........................................    27
Zenoff, Kathryn E., Presiding Justice, Illinois Appellate Court, 
  Second District, Rockford, Illinois............................    29

                         QUESTIONS AND ANSWERS

Responses of Samuel Bagenstos to questions submitted by Senator 
  Coburn.........................................................    44
Responses of Harley Lappin to questions submitted by Senator 
  Coburn.........................................................    46
Responses of Mary Lou Leary to questions submitted by Senator 
  Coburn.........................................................    54
Responses of Gary D. Maynard to questions submitted by Senator 
  Coburn.........................................................    58
Responses of Michael P. Randle to questions submitted by Senator 
  Coburn.........................................................    61
Responses of Kathryn E. Zenoff to questions submitted by Senator 
  Coburn.........................................................    63
Questions submitted by Senator Coburn to David Fuller (Note: 
  Responses to questions were not received as of the time of 
  printing, May 10, 2011)

                       SUBMISSIONS FOR THE RECORD

American Civil Liberties Union, Michael W. Macleod-Ball, Acting 
  Director, Joanne Lin, Legislative Counsel, Washington, DC, 
  statement......................................................    68
American Psychological Association, Washington, DC, statement....    79
Amnesty International, New York, New York, statement.............    84
Bagenstos, Samuel, Deputy Assistant Attorney General, Civil 
  Rights Division, U.S. Department of Justice, Washington, D.C., 
  statement......................................................    87
Burr, Richard, Attorney, Houston, Texas, prepared statement......    93
Byrne/JAG Appropriations, grant..................................    98
Campaign for Youth & Justice, Liz Ryan, President and Chief 
  Executive Office, Washington, DC, statement....................   100
Council of State Governments, Justice Center, Fred C. Osher, 
  Director of Health Systems and Services Policy, New York, New 
  York, statement................................................   128
Department of Justice, Office of Justice Program, Washington, 
  DC.:
    Bureau of Justice Statistics, Special Report.................   145
    Bureau of Justice Statistics, Bulletin.......................   157
Federal Grant Programs Available for Treatment of Mentally Ill 
  Offenders......................................................   183
Fuller, David L., Outreach and Housing Coordinator, Manhattan 
  Outreach Consortium, Brooklyn, New York, statement.............   193
Griffin, Gene, J.D., Mental Health Services and Policy Program, 
  Northwestern University Feinberg School of Medicine, Chicago, 
  Illinois, statement............................................   206
Heartland Alliance's National Immigrant Justice Center, Chicago, 
  Illinois, statement............................................   208
Human Rights Watch, New York, New York, statement................   214
Lappin, Harley G., Director, Federal Bureau of Prisons, 
  Washington, DC., statement.....................................   228
Leadership Conference on Civil Rights, Wade Henderson, President 
  & Chief Executive Office, Washington, DC, statement............   236
Leary, Mary Lou, Deputy Assistant Attorney General, Office of 
  Justice Programs, U.S. Department of Justice, Washington, DC., 
  statement......................................................   241
Maynard, Gary D., Secretary, Maryland Department of Public Safety 
  and Correctional Services, Towson, Maryland, statement.........   329
Mental Health America, Alexandria, Virginia, statement...........   334
National Council for Community Behavioral Healthcare, Linda 
  Rosenberg, President & CEO, Washington, DC, statement..........   339
National Council on Disability, John R. Vaughn, Chairperson, 
  Washington, DC, letter and attachment..........................   344
National Disability Rights Network, Protection & Advocacy for 
  Individuals with Disabilities, Washington, DC, statement.......   349
New Yorker.com, Atul Gawande, March 30, 2009, article............   357
Randle, Michael P., Director, Illinois Department of Corrections, 
  Springfield, Illinois, statement...............................   368
Rebecca Project for Human Rights, Malika Saada Saar, Executive 
  Director, Kathleen Shakire Washington, Policy Director, 
  Washington, DC, joint statement................................   372
Rights Working Group, Washington, DC, statement..................   382
Rohr, Gretchen, Director, DC Jail Advocacy Project, University 
  Legal Services, Washington, DC, statement......................   383
SAVE Coalition, statement........................................   401
VERA Institute of Justice, Alex Busansky, Director, Washington, 
  DC, statement..................................................   403
Witness Justice, Helga Luest, President & CEO, Frederick, 
  Maryland, statement............................................   405
Zenoff, Kathryn E., Presiding Justice, Illinois Appellate Court, 
  Second District, Rockford, Illinois, statement.................   437


     HUMAN RIGHTS AT HOME: MENTAL ILLNESS IN U.S. PRISONS AND JAILS

                              ----------                              


                       TUESDAY, SEPTEMBER 15, 2009

                                       U.S. Senate,
                  Subcommittee on Human Rights and the Law,
                                        Committee on the Judiciary,
         Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:58 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Richard J. 
Durbin, Chairman of the Subcommittee, presiding.
    Present: Senators Durbin, Franken, and Coburn.

  OPENING STATEMENT OF HON. RICHARD J. DURBIN, A U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Chairman Durbin. This hearing of the Human Rights and the 
Law Subcommittee will come to order. The subject at today's 
hearing is ``Human Rights at Home: Mental Illness in U.S. 
Prisons and Jails.''
    At the outset, I want to thank Judiciary Committee Chairman 
Pat Leahy for reestablishing this Subcommittee. This is another 
measure of his commitment to human rights. I also want to thank 
Jeff Sessions, the Committee's Ranking Member, for his support 
of the re-creation of this Subcommittee.
    I want to express personal appreciation to my colleague 
Senator Tom Coburn, who not only is serving again as Ranking 
Member of this Subcommittee, but spoke up and said, ``Why would 
you not have this Subcommittee? '' That is a nice thing to hear 
from your colleague, and I think we proved in the first 2 years 
of our existence as a team on this Subcommittee that we could 
accomplish some good things.
    In the 110th Congress, this Subcommittee focused and 
reflected on issues like genocide in Darfur, Internet 
censorship in China, and rape as a weapon of war in the 
Democratic Republic of Congo. But, in all honesty, we must also 
reflect on ourselves.
    Today in the United States, more than 2.3 million people 
are imprisoned. This is, by far, the most prisoners of any 
country in the world and, by far, the highest per capita rate 
of prisoners in the world. African Americans are incarcerated 
at nearly six times the rate of white citizens. And many of 
these prisoners are non-violent drug offenders and individuals 
with serious and persistent mental illness.
    Now, Senator Jim Webb of Virginia has introduced 
legislation creating a commission to examine our criminal 
justice system and make recommendations for reform. This 
comprehensive review is really needed. But there are critical 
reforms needed right now and we should not wait to address 
them.
    Earlier this year, Senator Lindsey Graham of South Carolina 
and I held a hearing on the sentencing disparity between crack 
and powder cocaine, which leads to excessive prison sentences 
for many non-violent drug offenders. We are working with all 
the members of the Committee to try to come up with legislation 
to address this problem.
    Today, we are going to address another aspect of the 
criminal justice system that raises important human rights 
issues: the treatment of mental illness in U.S. prisons and 
jails.
    My late friend and mentor, former Senator Paul Simon, 
brought this issue to my attention many years ago. The problem 
has only grown worse since then.
    In 2006, the Bureau of Justice Statistics found that more 
than half of all prison and jail inmates, including 45 percent 
of Federal prisoners, 56 percent of State prisoners, and 64 
percent of local jail inmates suffer from a mental health 
problem.
    In fact, the three largest mental health facilities in the 
United States of America are the Los Angeles County Jail, 
Rikers Island Jail, and the Cook County Jail.
    Women and children are especially vulnerable. The Bureau of 
Justice Statistics found that 61 percent of females in Federal 
prisons have mental health problems, compared to 44 percent of 
males.
    In a recent survey, two-thirds of boys and three-fourths of 
girls detained in juvenile facilities in Cook County, Illinois, 
have at least one mental illness. Juvenile offenders with 
serious mental illnesses are more likely to be abused by other 
juvenile offenders and have their incarceration extended 
because of conduct related to their mental illness.
    By allowing our prisons and jails to become one of our 
Nation's primary providers of mental health services, we have 
taken a step backward in time. Two hundred years ago, people 
with mental illness were incarcerated in jails and prisons. By 
the beginning of the 20th century, we transitioned from that 
model to State mental institutions and hospitals. Growing 
public revulsion about conditions in mental hospitals led to a 
movement for deinstitutionalization around 40 or 50 years ago. 
Community mental health services were supposed to step in to 
replace State mental hospitals, but that did not happen. It is 
stunning to read that 8 years ago the GAO found that 9,000 
children were surrendered by their families to the juvenile 
justice system so that they could receive basic mental health 
services.
    As a result of all this, many people with mental illness 
cycle in and out of correctional institutions, presenting a 
danger to themselves, correctional officers, and the public. We 
have returned to the loathsome, indefensible practice of 
incarcerating the mentally ill. While in prison, many mentally 
ill prisoners have limited or no access to mental health 
services, and their conditions frequently deteriorate. They 
often have difficulty complying with prison rules and, as a 
result, are disproportionately represented in solitary 
confinement, which only makes their mental illness worse.
    I am deeply troubled by reports about conditions for 
persons with mental illness at Tamms Correctional Center, a 
super-maximum security facility in my own home State of 
Illinois. Governor Pat Quinn recently ordered a review of 
Tamms, and I look forward to discussing this issue with one of 
our witnesses, Michael Randle, who heads the Illinois 
Department of Corrections.
    I want to salute Gary Marx of the Chicago Tribune and 
especially George Pawlaczyk and Beth Hundsdorfer of the 
Belleville News-Democrat for their provocative and thorough 
articles on the Tamms Correctional Center.
    I look forward to hearing from our witnesses about the best 
practices for dealing with people with mental illness in the 
criminal justice system, including mental health courts to 
divert appropriate individuals into treatment and a continuum 
of care for individuals from entry screening to discharge 
planning.
    Our country was founded on the principle that all people 
are created equal and endowed with certain inalienable rights. 
This was, and still is, the promise of America. For 
generations, this singular idea has inspired freedom fighters, 
toppled ruthless dictators, and given hope to the disempowered 
and disenfranchised around the world. We must keep faith with 
our Founders by working to keep America's promises not only 
abroad but at home.
    That is true even for, in fact especially for, the least 
among us--whether it is a crack addict serving a mandatory 
minimum sentence or a person with mental illness who cycles 
endlessly through shelters, hospitals, jails, and prisons. This 
is the right thing for us to do, but it is also the smart thing 
to do because it will keep police and corrections officers and 
the public safer and dramatically reduce costs for 
incarceration at a time of fiscal crisis.
    Senator Coburn.

STATEMENT OF HON. TOM COBURN, A U.S. SENATOR FROM THE STATE OF 
                            OKLAHOMA

    Senator Coburn. Well, thank you, Senator Durbin, and I 
thank our witnesses for being here. I do apologize to you in 
advance. I am conflicted with two other ongoing committees at 
the same time, and so I will be leaving in a short period of 
time.
    As a practicing physician, I have seen over the last 25 
years a significant increase in how the stressors in our 
country and in our lives have impacted mental health, and there 
is no question the greatest factor, I believe, happens to be 
addiction to drugs and what that does to us. And the Chairman 
and I both have a desire at some point in time to see a 
different system of incarceration for those that are addicted. 
We think we can do it more economically. We know we can do it 
more successfully, and we know that good drug treatment 
programs make big differences in people's lives to the tune of 
about 60 to 70 percent of them never walk that path again.
    In terms of our hearing today, the key is recognition and 
prevention. If we have some incarcerated that we have not 
recognized a significant illness, we are asking for problems 
for us as well as for them. And so intake screening and 
thorough evaluation is a must. We understand that. Treatment 
also is a must, especially in some of our more significant 
psychoses and tougher illnesses.
    The point that Senator Durbin made--I almost called you 
``doctor,'' ``Dr. Durbin.'' The point that Senator Durbin makes 
about developing mental illness in prison, it is easy to see. 
Depression, psychotic depression, which oftentimes those who 
work in our system are not prepared to understand that a 
psychosis is ongoing that is not the individual's normal 
behavior, but it is a result of psychotic depression, which I 
could imagine very easily anyone could fall into.
    Where Senator Durbin and I differ is that, number one, I 
look for a constitutional role within the enumerated powers 
that we have the authority to fix it at the States. I am not 
sure we do, but the one thing I am in agreement with him on is 
we ought to model the absolute best practices at the Federal 
level, and that if we do that, lots can be learned from that, 
and that example can be utilized.
    Oklahoma is high in its incarceration rate. We have a 
pretty tough justice system, and this is a problem that we 
experience as well.
    The answer is not just more money. The answer is a great 
plan and set an example and let us see if we cannot markedly 
improve.
    The final point I would make--and I appreciated the 
testimony from Mr. Maynard in terms of his three suggestions, 
which I thought were very cogent in terms of the things that we 
need to do:
    Ensure a specific methodology at intake so that we know 
what we have got, know what we are doing, and make sure it is 
thorough.
    Second, technology improvement to identification ongoing 
while at intake; and cross-checking data bases with past 
history. You know, one of the biggest problems is we do not get 
thorough past medical histories.
    I will take just a little bit of liberty. I have a 
gentleman that is incarcerated today that had true manic-
depressive disease, and all of his convictions are on the basis 
of when he was in a manic state, uncontrolled, undiagnosed, and 
he is now serving the minimum mandatory 15-year sentence simply 
because we failed. We failed to diagnose him. We failed to 
treat him, both inpatient and outpatient, in incarceration as 
well as outpatient. And so now he finds himself in a long-term 
situation, and he is a model prisoner because he is being 
controlled. His medicines are being given. He no longer has the 
disease. So it is a real problem, and we do not deny that. 
Then, finally, appropriate staffing levels in terms of mental 
health professionals and counseling that would go along with 
that.
    So I am very pleased we are having--I think it is a human 
right to have your health care diagnosed when we are going to 
incarcerate you, and I think we ought to set that example at 
the Federal Government, and I look forward to the witnesses' 
testimony. I thank you all for being here.
    Chairman Durbin. Thank you, Senator Coburn.
    Without objection, a statement by Senator Feingold will be 
entered in the record.
    [The prepared statement of Senator Feingold appears as a 
submission for the record.]
    Chairman Durbin. I yield to Senator Franken, if you would 
like to make an opening comment or statement.

STATEMENT OF HON. AL FRANKEN, A U.S. SENATOR FROM THE STATE OF 
                           MINNESOTA

    Senator Franken. Thank you, Mr. Chairman. I would like to 
make just a short statement and submit a fuller statement for 
the record, if that is okay.
    Mr. Chairman, Senator/Dr. Coburn, I appreciate the 
opportunity to participate in this hearing which touches on two 
issues that are of utmost importance to me: caring for those 
with mental illness and working to reform our country's deeply 
flawed prison system. The sheer volume of people that we 
imprison in this country is a crime in itself, and as a 
society, we are most guilty of failing the thousands of young 
people who, instead of receiving education, support, and 
treatment, are growing into adulthood behind bars, a fate which 
virtually dooms these children from ever becoming productive 
citizens.
    I was very happy to hear Senator Coburn's remarks on 
treatment and am very encouraged by that, and I am in complete 
agreement with him. So I would like to hear from the witnesses, 
and thank you, Mr. Chairman and Senator Coburn.
    Chairman Durbin. Thank you, Senator Franken, and your 
opening statement will be admitted into the record at this 
point, without objection, and Senator Coburn's as well.
    [The prepared statement of Senator Franken appears as a 
submission for the record.
    [The prepared statement of Senator Coburn appears as a 
submission for the record.]
    Chairman Durbin. Now we turn to the first panel of 
witnesses for opening statements. They will each have 5 
minutes. Their entire written testimony will be part of the 
record. I am going to ask them to stand, and as is the custom 
of the Committee, we swear in our witnesses.
    Would you please raise your right hand? Do you affirm that 
the testimony you are about to give before the Committee is the 
truth, the whole truth, and nothing but the truth, so help you 
God?
    Mr. Lappin. I do.
    Mr. Bagenstos. I do.
    Ms. Leary. I do.
    Chairman Durbin. Let the record indicate that all three 
have answered in the affirmative and, therefore, may proceed.
    Our first witness is Harley Lappin, the Director of the 
Federal Bureau of Prisons. He has served at BOP for 24 years, 
and has been the Director since 2003. Mr. Lappin is responsible 
for the Bureau's 114 institutions and the safety and security 
of over 208,000 Federal inmates. He holds a B.A. in forensic 
studies from Indiana University in Bloomington and an M.A. in 
criminal justice and correctional administration from Kent 
State University.
    Thanks for joining us today and please proceed.

  STATEMENT OF HARLEY G. LAPPIN, DIRECTOR, FEDERAL BUREAU OF 
                   PRISONS, WASHINGTON, D.C.

    Mr. Lappin. Good morning, Chairman Durbin, Ranking Member 
Coburn, and members of the Subcommittee. I am pleased to appear 
before you today to testify on the very important topic of 
mental illness in correctional facilities. Inmates with mental 
health problems present a host of challenges. I am well aware 
that the challenges we face in the Bureau of Prisons are not 
unique to the Federal prison system. State and local 
corrections systems have similar issues and often fewer 
resources at their disposal. I am committed to ensuring the 
Bureau of the Prisons does all it can to attend to this 
vulnerable population, but I know there are cases where 
individuals leave prisons with their mental illnesses 
untreated. We must do more if we want to prevent further 
criminal behavior and victimization in our communities.
    Since early 2000, the National Institute of Corrections has 
provided support to State and local corrections in the area of 
mental health, including holding public hearings, sponsoring 
Web-based forums, and providing technical assistance both 
directly and through a third party. We estimate that 19 percent 
of the inmates admitted to the Bureau of Prisons suffer from 
some mental illness. As in the community, the vast majority of 
these inmates are treated on an outpatient basis at the 
institution by Psychology Services staff working in 
collaboration with other staff, including therapists, 
counselors, social workers, and either a full-time or 
consultant psychiatrist, as indicated. Our staff also conduct 
an array of forensic evaluations for the courts.
    Group counseling is a very effective method for the 
delivery of mental health services to inmates in the Bureau of 
Prisons. Individual counseling is also provided at every 
institution to inmates with a need for more intensive services.
    Inpatient psychiatric services are provided for chronic and 
acutely mentally ill cases, as well as for court-ordered 
placements. These services are provided at the Bureau of 
Prisons medical referral centers, each of which is accredited 
by the Joint Commission on Accreditation of Health Care 
organizations. The chronically mentally ill remain at the 
centers for the duration of their sentence, but acute cases are 
treated, stabilized, and then returned to our mainstream 
institutions.
    All inmates coming in to the Federal prison system are 
screened for mental illnesses, and subsequent screenings are 
done during reviews of inmates in special housing units, as 
indicated. Treatment plans are developed for inmates found to 
be in need of treatment, and when necessary, inmates are 
transferred to different institutions.
    We offer a variety of residential or intensive treatment 
programs for mentally ill inmates of both genders at all 
security levels. My written statement describes these programs 
in some detail.
    We also operate a dual diagnosis residential drug abuse 
treatment program for inmates suffering from both a substance 
abuse disorder and a serious mental illness, and we offer this 
program to both male and female offenders.
    The Bureau of Prisons currently has more than 450 full-time 
psychology treatment staff, the majority of whom are 
psychologists, with some psychology technicians and treatment 
specialists. This figure does not include the drug treatment 
staff.
    We also have 30 full-time psychiatrists within the system. 
These psychiatrists are able to treat inmates at all of our 
institutions through the use of video technology, which is much 
less costly than relying on contract psychiatrist and also 
ensures continuity of care.
    Many individuals who suffer from mental illnesses are at 
the risk of committing suicide. All Bureau of Prisons staff are 
trained to recognize signs indicative of potential suicide, to 
prevent suicides, and to understand and make appropriate use of 
the referral process. The Bureau of Prisons uses well-trained 
staff, skilled clinicians, frequent referrals, prevention 
techniques, and extended follow-up services to manage the 
suicide risk by Federal inmates. While any suicide is tragic, 
over the past 10 years, the Bureau's suicide rate has been less 
than the rate for the general U.S. population.
    The Bureau of Prisons works hard to ensure the smooth 
transition of mentally ill inmates from prison to the community 
through the close communication with other authorities--the 
United States Probation Services, the Court Services and 
Offender Supervision Agency, as well as treatment providers in 
the community, through our network of residential reentry 
centers.
    The majority of the inmates transition through residential 
reentry centers--also known as community corrections centers or 
halfway houses--to help them to adjust to life in the 
community, to acquire post-release employment, and in many 
cases find suitable housing. The BOP's Transitional Services 
staff coordinate and oversee treatment of inmates housed in 
residential reentry centers.
    Thank you for holding this hearing and bringing attention 
to this important topic. The mentally ill in prison are a 
unique population that poses real challenges for our agency. We 
are doing a lot, particularly given the budget restrictions we 
have experienced. But more can be done, particularly through 
collaborating with our partners around the country, State, 
local, and other Federal law enforcement agencies, mental 
health agencies, and community organizations. I think it is 
critically important, as Senator Coburn mentioned, that we work 
together to identify the presence of mental illness in 
offenders as early as possible in the criminal justice system, 
such as at arrest, and that there be a mechanism in place for 
that information to be passed on to those who will incarcerate 
that person or hold that person in the future. This will often 
avert harm to the offender and to others.
    We should provide the resources to meet the needs of 
mentally ill offenders during incarceration and support them 
upon release as they face the challenges of reentering 
communities.
    Finally, we should encourage jails, prisons, lock-ups, 
community corrections centers to seek accreditation from 
outside entities, thereby establishing a set of standards and 
expectations for staff to follow.
    Chairman Durbin, this concludes my formal statement. I am 
pleased to answer any questions at the appropriate time. Thank 
you.
    [The prepared statement of Mr. Lappin appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Mr. Lappin.
    Our next witness, Samuel Bagenstos, is Deputy Assistant 
Attorney General in the Civil Rights Division of the U.S. 
Department of Justice, an expert in disability law, taught at 
the University of Michigan Law School, the UCLA School of Law, 
Washington University School of Law, and Harvard. He has a B.A. 
from the University of North Carolina and a J.D. from Harvard 
Law School.
    Mr. Bagenstos, thank you for joining us, and the floor is 
yours.

   STATEMENT OF SAMUEL BAGENSTOS, DEPUTY ASSISTANT ATTORNEY 
  GENERAL, CIVIL RIGHTS DIVISION, U.S. DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Mr. Bagenstos. Thank you, Chairman Durbin and Ranking 
Member Coburn and members of the Committee. I am honored and 
pleased to be here today to testify about the enforcement of 
the Civil Rights of Institutionalized Persons Act and its 
application to protect the rights of individuals who have 
mental illness in prisons and jails. My name is Samuel 
Bagenstos, as the Chairman said, and as Deputy Assistant 
Attorney General for the Civil Rights Division, among my duties 
is supervising the Special Litigation Section, which has the 
responsibility for enforcing the CRIPA statute.
    In the nearly three decades since the enactment of the 
statute, the Division has investigated more than 430 facilities 
across the country and has been able to improve conditions for 
tens of thousands of individuals in those facilities. We 
currently has 24 ongoing CRIPA investigations involving jails 
and prisons, and we are enforcing compliance with consent 
decrees and other agreements covering 21 correctional 
facilities nationwide. And I should point out that those 
numbers do not include our investigations of juvenile justice 
facilities, of which we have 17 ongoing, about three-quarters 
of which raise issues of mental illness and treatment of people 
with mental illness. And those figures also don't include our 
enforcement, which is a significant part of our duties, of the 
Supreme Court's landmark Olmstead case, which we are applying 
to ensure that people with mental disabilities are served in 
appropriate settings in the community.
    Inadequate mental health care in the Nation's jails and 
prisons, which is the subject of this hearing, poses a critical 
problem for inmate safety and can stand in the way of real 
rehabilitation for those who are incarcerated and do not have 
access to treatment. In our CRIPA enforcement, we have 
uncovered systematic deficiencies in mental health care in 
jails and prisons across the Nation, and we have aggressively 
pursued reforms to ensure that inmates are afforded their 
constitutional rights.
    I will just talk about a couple of examples, a couple of 
the key areas in my oral testimony, and maybe we can have 
questions about others.
    Probably the most urgent issue that we encounter in our 
investigations is the lack of adequate procedures for the 
detection of suicide risk and the lack of measures for suicide 
prevention. So in our investigations, we often find that jails 
and prisons process and house inmates without regard to their 
suicidal history or their mental health history. One example 
was a jail that failed to take precautions even when warned by 
a family that an inmate was suicidal, and the inmate committed 
suicide within hours of his arrest.
    We have found problems including the failure to remove 
features in jail cells that have proven conducive to suicide, 
like protuberances that people can hang themselves from and 
other situations where individuals who are suicidal have not 
been adequately supervised.
    Another example of our enforcement, we detected in a 
facility where an inmate attempted to commit suicide by cutting 
himself had hoarded 30 razors in his cell. Yet 4 months later, 
another inmate committed suicide by cutting himself with a 
razor. In other facilities we have found a lack of adequate 
safety equipment, such as cut-down tools, to quickly respond to 
suicide attempts. Suicide is a major part of the problems we 
find in the treatment of people with mental illness in prison, 
as Director Lappin testified.
    We also frequently find that jail and prison staff use 
harmful methods of isolation, seclusion, or restraint as a 
substitute for mental health treatment, often in response to 
behaviors that inmates cannot control because of their mental 
disabilities.
    In one facility we investigated, because of a lack of staff 
detainees were regularly placed on suicide watch, which meant 
they were isolated for 23 hours a day, sometimes for days or 
weeks at a time. They did not receive adequate assessment or 
treatment. They sometimes waited days for an initial 
evaluation, initial psychiatric evaluation, and several times 
detainees placed in isolation injured themselves due to 
psychosis-related behavior. In one instance, an individual was 
slamming himself against the wall of his cell while wrapped in 
a blanket, which protected his body somewhat. Correctional 
staff removed the blanket. That was their response.
    We have also found that inmates with mental disabilities 
are subject to attack by other inmates, and jail and prison 
officials fail to provide proper protection. We have some 
examples of that in the written testimony.
    And we find generally that the deficiencies that we uncover 
stem from two basic problems: first of all, the failure to 
commit sufficient resources to provide adequate care to people 
who are put in prison and kept away from their own opportunity 
to get medical care; and, second, the failure to provide 
adequate training to jail and prison staff.
    We found one facility that had 217 detainees who received 
psychotropic medications, and yet there were only two part-time 
psychiatrists at that facility.
    In other instances, when we find that staff are not trained 
to deal with people with mental disabilities in the prisons, 
they respond by using force appropriately. We have examples of 
people who were beat up by prison guards for engaging in 
conduct that was a result of their mental illness.
    We have been successful in resolving the vast majority of 
the violations we discover through voluntary agreements, 
without contested litigation. We have some examples in the 
testimony of working cooperatively with, for example, the State 
of Wisconsin, with their only women's correction facility where 
we found significant issues relating to the constitutional 
rights of inmates with mental illness, but we have worked 
cooperatively to lay out a set of specific remedies, a detailed 
action plan that the State of Wisconsin has followed and that 
has at this point been successful. That agreement, as with all 
of our agreements under CRIPA, is one that we closely monitor 
to ensure compliance. And we find that access to mental health 
care is a critical need in jails and prisons across the Nation, 
so we are committed to ensuring inmates with mental illness 
receive adequate treatment in safe conditions.
    Thank you again for the opportunity to testify before this 
Committee, and I look forward to your questions.
    [The prepared statement of Mr. Bagenstos appears as a 
submission for the record.]
    Chairman Durbin. Thank you very much.
    Our next witness, Mary Lou Leary, is the Deputy Assistant 
Attorney General for the Justice Department's Office of Justice 
Programs. Previously, she served as the Executive Director of 
the National Center for Victims of Crime, Acting Assistant 
Attorney General of OJP, and U.S. Attorney for the District of 
Columbia. She has a bachelor's degree from Syracuse University, 
a master's degree in education from Ohio State University, and 
a law degree from Northeastern University School of Law.
    Ms. Leary, thank you for being here. Please proceed.

STATEMENT OF MARY LOU LEARY, DEPUTY ASSISTANT ATTORNEY GENERAL, 
    OFFICE OF JUSTICE PROGRAMS, U.S. DEPARTMENT OF JUSTICE, 
                        WASHINGTON, D.C.

    Ms. Leary. Thank you very much, Mr. Chairman, Ranking 
Member Coburn, and Senator Franken. I am very happy to be here 
to discuss the Department of Justice's efforts to improve the 
response of State and local criminal justice systems to people 
with mental illnesses. We are very pleased that the 
Subcommittee is interested in this issue.
    As you all are very well aware, many people entering the 
criminal justice system in this country have problems with 
mental illness. According to a report from the Council of State 
Governments that was funded in part by the Office of Justice 
Programs, 16.9 percent of the adults in a sample of local jails 
had mental illness, a serious mental illness. That is three to 
six times the rate for the general population. And also 
troubling is that while the rate was 14 percent for men, it was 
31 percent for women. If you applied these rates to the 13 
million jail admissions in 2007, the study suggests that more 
than 2 million bookings of persons with serious mental illness 
take place every year.
    So to help address this issue, OJP's Bureau of Justice 
Assistance administers a program called the Justice and Mental 
Health Collaboration Program, bringing together the mental 
health system and the criminal justice system to work 
collaboratively to address these needs. And the program helps 
State and local governments and tribes design and implement 
collaborative efforts between the criminal justice system and 
the mental health systems. The goal is to improve access to 
effective treatment for people with mental illness. That 
improves public safety, prevents recidivism, and provides 
effective treatment for those who need it.
    From fiscal year 2006 through 2008, BJA awarded 76 of these 
grants--that is a total of about $12 million--to 32 States, 
D.C., and Guam. Many of these programs support--many of the 
grants support programs for adults, but some also go to 
juveniles, and there are a number of grantees who are 
addressing both of those populations.
    Also, projects have been targeted, through the Bureau of 
Justice Assistance, to the National Institute of Corrections, 
and Council of State Governments to jointly to provide training 
and technical assistance to communities across this country 
regardless of whether they have received funding. Training and 
technical assistance is really critical when we talk about 
replicating good practices.
    In just a very short period of time, we have already seen 
significant progress. We know that the majority of women inside 
prisons have mental health problems, and yet only a very few of 
them receive treatment while they are incarcerated.
    In New Jersey, their Department of Corrections received a 
grant in 2008 to provide trauma-informed care and reentry life 
skills to women in the New Jersey State prison. This program 
teaches basic life skills--health, nutrition, job applications, 
things of that nature--but they also take part in something 
called ``Seeking Safety,'' and that is a trauma-informed 
therapeutic program that gets at the roots of trauma and 
provides treatment and an outlet for women who are in this 
program.
    In Cass County, North Dakota, in 2005 only 191 detainees 
were even referred for a psychological assessment, and out of 
these, only 92 of them actually got treatment because there 
just were not enough resources to provide that treatment. They 
received grant funding in 2008 to address these issues, and in 
just the first 5 months of 2009, 550 detainees received an 
assessment; 373 of them were referred for treatment and 
services, and 10 of them were actually taken for 
hospitalization or inpatient evaluation.
    Encounters with law enforcement we know often play a very 
critical role in whether or not people with mental illness end 
up recycling in and out of the criminal justice system. In 
order to address this, there are many law enforcement 
departments that are partnering with mental health specialists 
around this country to make it easier from the get-go, from the 
first encounter with law enforcement, to refer the appropriate 
people for mental health services. These programs are often 
called ``co-responder teams'' or ``crisis intervention teams,'' 
and these kinds of models are eligible to receive funding under 
the program at BJA.
    Seven jurisdictions in the country have used BJA funds to 
start or enhance law enforcement response programs that link 
people with mental illness to treatment and services, and this 
is the best kind of diversion from the criminal justice system 
for people with these problems.
    BJA has also partnered with the Council of State 
Governments and the National Association of Counties on a 
number of publications to help other communities learn about 
best practices and how to implement these models. Those 
publications address things like law enforcement response, 
mental health courts, effective reentry practices for people 
with mental illness, and I have included copies of these 
publications with my testimony, so I hope you will have a 
chance to look at those.
    Please be assured that the Department of Justice will 
continue with its work and its commitment to addressing this 
issue. In fiscal year 2009, we will be awarding 43 grants, a 
total of nearly $8 million. These grants include projects in 
Illinois, Minnesota, Oklahoma, Pennsylvania, South Carolina, 
Texas, and Wisconsin. Additional funding will support training 
and technical assistance efforts. Also, there are many grants 
under the Second Chance Prisoner Reentry Act that will 
specifically address mental illness and pre-release services 
and treatment as part of a comprehensive reentry effort.
    This concludes my statement, and I am really grateful for 
the opportunity to testify today. I will take any questions 
that you have.
    [The prepared statement of Ms. Leary appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Ms. Leary.
    Mr. Lappin, you testified that 19 percent of incoming 
offenders into the Federal correctional system in 2002 and 2003 
suffered from mental illness. That translates to well over 
30,000, maybe 40,000 in your total population with mental 
illness. You testified that Bureau of Prisons psychologists 
conducted 37,263 individual counseling sessions in fiscal year 
2008, which sounds like a large number until you consider that 
somewhere between 30,000 and 40,000 inmates are mentally ill.
    How many inmates received individual counseling sessions 
during fiscal year 2008? And how frequently did these sessions 
take place?
    Mr. Lappin. I am not sure that I have the actual number of 
individual counseling sessions that took place. I can try to 
gather that and provide it for the record, but it is all 
determined on a case-by-case basis. Obviously, as well staffed 
as we are--and I have to state we are probably much better 
staffed in the area of mental health needs than many States and 
locals--it is still a huge challenge to address the needs of 
that many individuals.
    And just so you know, our definition of ``mental health'' 
is meeting the criteria of the Axis I Disorder and the 
Diagnostic and Statistical Manual of Mental Disorders. It does 
not include--as part of that Axis I, it does not include folks 
diagnosed with antisocial behavior or drug abuse disorders. So 
we have not included those in that category even though they 
fall within the Axis I. If we add those folks in, it would be a 
much higher number.
    Chairman Durbin. How many Bureau of Prisons inmates receive 
psychotropic medication?
    Mr. Lappin. In excess of 16,000, and we are working on--it 
is a little confusing because psychotropic medication is 
actually provided for some disorders other than mental health 
issues, so we are sorting through that. We will be able to 
provide a more accurate number in the not too distant future. 
But we spent $61 million last year on medications, and $11.5 
million was spent on psychotropic medication. So you can see it 
is a large portion of that medication that we do provide.
    Chairman Durbin. $11.5 million?
    Mr. Lappin. $11.5 million. We only provide medications for 
those that have a clinical need for medication. So not all 
folks who suffer from mental illness get medication.
    Chairman Durbin. With 30 full-time psychiatrists at the 
Bureau of Prisons located primarily at your medical referral 
centers and other BOP facilities receiving psychiatric services 
via video or contract psychiatrist, this translates to roughly 
one psychiatrist for every 1,000 inmates with mental illness, 
and apparently one psychiatrist for every 530 inmates who are 
currently on psychotropic medication. That is an incredible 
caseload.
    Mr. Lappin. There are also a number of contract 
psychiatrists--I can get that number--that support those 30 
psychiatrists. But you are right, it is a large number. We are 
able to do it more efficiently because of the use of 
telepsychiatry in lieu of people having to travel to assess and 
determine appropriate medications and utilization of 
psychotropic medication.
    But it is, it is a large number. We struggle in some 
locations recruiting and retaining not only psychiatrists but 
psychologists as well, in part because of the rural nature of 
some of our facilities on the one side, and, two, high cost-of-
living areas. Those are our two most challenging areas.
    To our benefit, which unlike States, we have the 
flexibility of moving those inmates to locations that have more 
of those staff and services available. And so I sympathize with 
some States that are very rural and struggle across the board, 
whereas we do have the ability to move the inmates who have the 
needs to other locations where those services can be provided.
    Chairman Durbin. The Seventh Circuit Court of Appeals at 
the Federal level is not known as a liberal court of appeals. 
They characterize the lack of an onsite psychiatrist in the 
Indiana State prison system as ``a serious system deficiency, 
contributing to a finding of deliberate indifference to a 
serious medical need.'' That is a standard established by our 
court system, which Mr. Bagenstos has spoken to.
    I would like to ask, of the inmates who are currently in 
the Federal Bureau of Prisons system, how many are being held 
in segregation or isolation?
    Mr. Lappin. Well, that varies. There are two types of 
segregation: disciplinary segregation and administrative 
detention. And we can get an actual--it varies from day to day 
to day. But I know at our highest-level institution, 
administrative maximum security facility in Florence, of the 
208,000 there are about 450 inmates there who are in controlled 
housing. We do not call it ``solitary confinement,'' but they 
are in controlled housing. Then every facility has a 
segregation unit for inmates who are either misbehaving or are 
fearful to be on a compound or just need to be removed from the 
general population.
    So the number varies, but we can get an actual number on a 
given day and provide it for the record.
    Chairman Durbin. What do you think is the impact of 
segregation and isolation on a mentally ill prisoner?
    Mr. Lappin. We have not seen as a consequence of conditions 
of confinement of that nature a result being an increase in 
mental illness. So at, for example, ADX Florence, we have not 
seen an increase in mental illness, we believe, driven by the 
fact they are confined in that nature.
    Now, realize although isolated or controlled, they are seen 
by staff daily. They interact daily. They are removed for 
recreation. So it is not like they are locked in a cell and 
there is no external contact.
    We have a pretty heavy presence of medical and mental 
health professionals there who do ongoing assessments. There 
are no unstable mentally ill inmates. If they become unstable, 
we remove them from there. We put them in a hospital until we 
gain their stability, at which time they would be returned to 
those conditions.
    So there are inmates there who have mental illnesses, who 
came there with mental illnesses, but they are controlled and 
they are stable during the period of time they are there, and 
they are monitored very closely.
    Chairman Durbin. I am not an expert in this field. I am 
trying to learn.
    Mr. Lappin. Yes.
    Chairman Durbin. In June of 2006, a bipartisan national 
task force, the Commission on Safety and Abuse in America's 
Prisons, released its recommendations after a year-long 
investigation. It called for ending long-term isolation of 
prisoners.
    ``Beyond about 10 days, the report noted, practically no 
benefits can be found and the harm is clear--not just for 
inmates but for the public as well. Most prisoners in long-term 
isolation are returned to society, after all. And evidence from 
a number of studies has shown that supermax conditions--in 
which prisoners have virtually no social interaction and are 
given no programmatic support--make it highly likely they will 
commit more crimes when they are released. Instead, the report 
said, we should follow preventive approaches used in [other] 
countries.''
    What I just quoted was an article entitled ``Hellhole'' by 
Dr. Atul Gawande. I do not know if you have seen it. It was 
published in The New Yorker on March 30, 2009. Without 
objection, I will enter it into the record.
    [The article appears as a submission for the record.]
    Chairman Durbin. Do you disagree with the conclusion of 
that task force?
    Mr. Lappin. I am going to speak to the supermax issue, and 
I disagree with that there is no benefit there. Let's realize 
there has got to be a balance here. Without question, the 
inmates that are housed at that supermax--and I cannot speak to 
the States, but my guess is they are similar. These are very 
violent, aggressive, challenging, difficult inmates who have 
decided they are not going to listen to the rules in prisons, 
they are not going to adhere to the direction of staff.
    You cannot run safe prisons with folks like that out in the 
general population.
    Chairman Durbin. Is there a middle ground between 
isolation--23 hours in a cell, for example--and general 
population?
    Mr. Lappin. I think there is, and that is when it comes to 
how those supermaxes are run. Is there contact with staff? Are 
there assessments that are done? Are there ongoing reviews? Is 
there a way for those folks to work their way out of those 
conditions of confinement? And, in fact, there are, as long as 
they agree to participate and abide by those rules.
    So our supermaxes, I am sure like many others, have a 
phased program that people can work their way through and 
eventually work their way out. But they have got to follow the 
rules. And the dilemma we have is if you look at this array of 
inmates that happen to be housed currently, the majority of 
them at ADX Florence--and I am sure other supermaxes 
similarly--are folks that have routinely and frequently 
assaulted staff and inmates in our institutions, killed 
inmates, sometimes killed staff.
    And, again, although it is tragic and unfortunate, you 
cannot protect the other inmates, nor can you protect the other 
staff, without managing these inmates in a more controlled, 
more structured environment.
    If people have other suggestions as to how that can be done 
and we still protect the other inmates and the staff who work 
in those facilities, I assure you that myself and the other 
directors of corrections around this country will be listening.
    Chairman Durbin. I will return to this, but, in fairness, 
Senator Franken has waited patiently. I have gone over my time.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Lappin, how many Federal prisons are there under the 
Federal Bureau?
    Mr. Lappin. We own and operate 115 Federal prisons. We 
contract privately with 14 large private contract facilities. 
They house primarily low-security criminal aliens. And then 
there are about 8,000 to 9,000 inmates on any given day in 250 
to 300 contract residential reentry centers. These are inmates 
who are transitioning from prison to the community. So we 
contract those services with companies and organizations in 
local communities--for a total of 208,000 inmates.
    Senator Franken. Thank you. You mentioned the dual 
diagnosis residential drug abuse treatment program, which seems 
like a very worthwhile investment for prisoners who have a dual 
diagnosis of mental illness and chemical dependency. At how 
many sites does the Bureau have this program?
    Mr. Lappin. We have this at three locations, and it is all 
driven on the number of inmates we see who have that dual 
diagnosis. If there are more inmates than we have room for, we 
would add more programs of that nature.
    But to give you an idea, 40 percent of our inmates have a 
diagnosis of drug or alcohol abuse in the Federal prison 
system; 92 percent of those inmates are volunteering for 
treatment. A portion of them have been diagnosed with a dual 
diagnosis condition, and we place them in these three programs 
to deal with both their addiction to drug or alcohol as well as 
their mental health issues.
    Senator Franken. It just seems like out of all the prisons 
that you have, to have only three prisons with that program 
seems inadequate.
    Mr. Lappin. Well, I will check and return for the record, I 
will tell you how many folks are in that program, how many have 
been diagnosed--they have to volunteer for treatment--and how 
long the waiting lists are, because what we do is monitor that 
waiting list. And if we saw the waiting list was such that we 
could not treat the number of folks who have that need, we 
would add programs. But we will provide that information for 
the record. We will tell you how many folks are on the waiting 
list and whether or not we are able to get to everybody that we 
diagnose with that need who volunteer for treatment.
    Senator Franken. Thank you.
    Mr. Bagenstos, in your testimony you describe the methods 
of isolation that Chairman Durbin referred to that are used to 
control prisoners with mental illnesses. Are these tactics used 
with juvenile prisoners?
    Mr. Bagenstos. Yes, they are. So we have found in some of 
our juvenile investigations isolation and seclusion used as a 
replacement for mental health treatment in some of our 
investigations, even more shockingly than in some of our jail 
and prison investigations. So in an investigation of one set of 
juvenile facilities, there were individuals who violated prison 
rules or facility rules, were locked in a darkened room for 23 
hours a day, was our finding. And so we have definitely found 
those sorts of problems in many juvenile facilities across the 
country.
    Senator Franken. Are there other tools that are better than 
putting a juvenile in isolation in a darkened room for 23 
hours?
    Mr. Bagenstos. We certainly think so. Our experts who we 
take on our tours certainly think so and who suggest minimum 
remedial measures to come into compliance with the 
Constitution. Often the problem in juvenile facilities is you 
are dealing with a population that has often undiagnosed mental 
illness problems, and for a variety of reasons, institutions do 
not provide the sorts of treatment or appropriate behavioral 
responses. And instead we have found in many cases seclusion 
restraint abuse as responses instead.
    Senator Franken. Let me ask you, what percentage, in your 
opinion or your research, are dual diagnosis, people with 
mental illness and substance abuse problems?
    Mr. Bagenstos. In what class of facilities? In the juvenile 
facilities?
    Senator Franken. Just in our Federal prison system.
    Mr. Bagenstos. Well, you know, our CRIPA enforcement 
authority does not extend to the Federal prison system, so I do 
not know that I am the best person to answer that question.
    Senator Franken. Okay. Let me ask you this: What type of 
training do prison officials receive to help them identify 
mental illness and defuse conflicts with mentally ill 
prisoners? And do you think there should be a Federal 
requirement for this kind of training?
    Mr. Bagenstos. Well, it is an interesting question whether 
there ought to be a Federal requirement for this kind of 
training. We enforce the constitutional rights of inmates at 
facilities or residents at juvenile facilities, and what we 
have found contributing to violations of the Eighth Amendment 
and 14th Amendment is a lack of training.
    So the example that I give in the written testimony of the 
Wisconsin State prison for women, the Taycheedah Correctional 
Institution, is an example where systemic deficiencies in the 
treatment of inmates with mental illness was related directly 
to a lack of training, and the remedy that we negotiated with 
and adopted and worked cooperatively with the State to 
implement includes requirements for training of the people who 
work at that facility, both when they come into service and 
then in-service training.
    The lack of training is one of the essential problems that 
we have found contributing to constitutional violations around 
the country.
    Senator Franken. Ms. Leary, just a general question. Do you 
think there are just too many people in prison in this country?
    Ms. Leary. I think there are too many people in prison in 
this country, Senator Franken, and part of the reason is that 
we are not addressing appropriately the needs of many people 
who do end up in prison--for instance, those with mental 
illness. Oftentimes, they are creating a disturbance, police 
are called to the scene, and they just lock them up. Then they 
end up in prison, and it starts a cycle, and they recidivate 
and they never get the treatment that they need. It just 
becomes a lifelong process in and out. That is just one example 
of the type of person who is in prison who should not be there.
    Senator Franken. You know, I liked your testimony about the 
Bureau of Justice grantee program in New York City that 
combines mental health treatment with community service as an 
alternative to traditional incarceration. How much does it cost 
to run a program like that? And do you think that alternative 
programs to incarceration for the mentally ill save taxpayers 
money in the long run?
    Ms. Leary. I can get you the figures on the costs for 
actually running a program like that. I do not have them with 
me. But we have seen an evaluation of several of these kinds of 
programs; we have seen that it does save the taxpayer money 
because you prevent recidivism and you can reduce the costs of 
incarceration.
    It is simply really beyond the capacity of the States to 
incarcerate all our problems. There are better and more cost-
effective investments that we can and should be making in such 
things as diversion programs, mental health courts, drug 
courts, better reentry so that once you leave you will not be 
coming back. There are many ways to save taxpayer dollars and 
actually improve public safety outcomes. That is a lot of what 
we do at the Office of Justice Programs.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Chairman Durbin. Thank you, Senator Franken.
    Mr. Lappin, returning to the one example you cited, when I 
asked you about isolation, you used the example of Florence, 
where you thought there were perhaps 450 inmates in isolation. 
Is there a resident psychiatrist at Florence?
    Mr. Lappin. Yes.
    Chairman Durbin. One or two?
    Mr. Lappin. There is one psychiatrist at Florence. There 
are about 3,000 inmates there, but he spends a great deal of 
his time at the administrative maximum security facility. There 
are also seven or eight psychologists.
    Chairman Durbin. And you indicated that if an inmate is put 
in isolation and there is a detection of a deteriorating mental 
condition, they are removed from isolation.
    Mr. Lappin. Well, we remove them to a hospital.
    Chairman Durbin. To a hospital.
    Mr. Lappin. To return them to a stable condition.
    Chairman Durbin. And who would make that observation of a 
deteriorating condition?
    Mr. Lappin. Well, yearly we train all of our staff as to 
what to look for. Now, granted, our experts--our psychiatrists, 
our psychologists, our treatment staff--are the ones that do 
the diagnosis and the assessment. But an alert can come from a 
correctional officer, from a unit staff, from an education 
person, because as part of our training we train our staff what 
to look for and who to inform if they see an inmate acting in a 
certain manner. And so that report can come from anyone, and 
then a mental health professional would intervene and make an 
assessment.
    Chairman Durbin. And what is the range of isolation, in 
terms of days, months, years, in the Federal Bureau of Prisons?
    Mr. Lappin. Typically very short. If you look at all the 
people who are in segregation as a whole, and on average, the 
amount of time they are there, typically their stays are short. 
That is our objective, to make that stay as short as possible 
and return them to a general population facility. So these 
supermaxes are the extreme only because these folks resist and 
they are not going to comply. And as a consequence, they end up 
in segregation or isolation for longer periods of time than 
what most inmates find themselves in those conditions that 
confine them.
    Chairman Durbin. There was an editorial in the Washington 
Post this morning about sexual violence in American prisons and 
sexual exploitation. What is your experience or your knowledge 
of the connection between mental illness and sexual 
exploitation in our Federal Bureau of Prisons?
    Mr. Lappin. In general, that is a more vulnerable 
population, those that have mental illnesses--not only those 
that have mental illnesses, but the folks who come in who are 
young, inexperienced, do not have the wherewithal to manage in 
that social environment. So without a doubt, there are higher-
risk groups who fall into the category of being manipulated or 
being taken advantage of. The mentally ill fall into that 
group. And it is unfortunate when, in this case, an employee 
violates the public trust in their capacity as a law 
enforcement officer and takes advantage of someone. It is 
unfortunate. Our policy is zero tolerance of that, and we try 
to aggressively identify that, investigate those incidents, and 
remove those folks if we have the evidence to do so.
    But, without a doubt, the mentally ill are more 
susceptible, more risky, and more vulnerable, as are some other 
unique groups of inmates within our population.
    Chairman Durbin. Also, with the Bureau of Prisons, do you 
have a juvenile population?
    Mr. Lappin. Very small, 141, and we contract out with local 
communities typically to house those offenders, unless they are 
of a very violent nature, and then we have a few special 
locations around the country where we house them. But on that 
issue, our challenge is finding locations that have the 
adequate services and support for the juveniles because, I do 
not disagree, a higher incidence of mental illness and 
emotional concerns with the juveniles. We have limited 
locations because when we go--we just do not dump these folks 
in there. We go out and we visit them. We have a contract with 
them. We set expectations. And it is very difficult sometimes 
for us to find appropriate facilities to house even as small a 
number as 141.
    Chairman Durbin. So, Mr. Bagenstos, now that you have heard 
this discussion here and have told us that you are trying to 
put this in the context of the constitutional rights and legal 
rights of prisoners in these circumstances, what is your view 
of segregation and isolation, the treatment of the mentally ill 
in our prison system, the treatment of juveniles? Do you have a 
view as to whether or not there is work to be done here?
    Mr. Bagenstos. I think there is a great deal of work to be 
done in the treatment of inmates with mental disabilities, 
psychiatric disabilities, in State jails, State prisons, 
juvenile facilities. You know, we do a lot of that work, and I 
have to----
    Chairman Durbin. Can you speak to the Federal system?
    Mr. Bagenstos. Well, it is difficult for me to speak to the 
Federal system because that is not within our CRIPA enforcement 
responsibilities, so we have not done investigations of that. 
You know, when I speak to this Committee----
    Chairman Durbin. Who does?
    Mr. Bagenstos. Well, I think Mr. Lappin could talk about 
that.
    Mr. Lappin. First of all, let me just say we believe that 
isolation should be used very seldom for folks who are mentally 
ill. And so if you look at our inpatient cohort, you are going 
to find that we use isolation as seldom as possible for that 
group who have been diagnosed with that mental illness and who 
are exhibiting behavior that needs to be managed and 
controlled. So there is a combination of things, if you talk to 
our treatment specialists, besides isolation. There is 
medication in appropriate cases. There is more counseling, 
there are more, other ways of controlling that. So isolation is 
the one that we try to use the least. However, there are some 
cases where it is necessary.
    If there are complaints about treatment of inmates in the 
Federal Bureau of Prisons--and those complaints can come from 
staff, from inmates, from the public, from whomever--all of 
those complaints work their way to the Office of the Inspector 
General, who would make a determination as to whether or not 
they would investigate, and they may reach out to Civil in some 
cases and ask them to jointly investigate a concern or a 
complaint that has been made. But the Office of the Inspector 
General takes the lead on how and where and in what fashion a 
complaint will be investigated and dealt with.
    Chairman Durbin. So, in addition to the court system, which 
is, of course, going to have the last word here, the internal 
mechanism is through the Inspector General's office?
    Mr. Lappin. Yes.
    Chairman Durbin. Which we probably should have invited to 
this hearing, but thank you very much.
    Mr. Bagenstos, we are going to hear later about the Tamms 
Correctional Facility in my State, a supermax facility. Have 
you received any complaints about Tamms?
    Mr. Bagenstos. I cannot tell you the answer to that. I do 
not know whether we have received complaints about Tamms. I 
will certainly look into that, and, you know, we can provide 
that information to the Committee.
    Chairman Durbin. Ms. Leary, one of the things that you said 
struck me as interesting. The first intake officer for someone 
mentally ill about to enter our system is usually a policeman, 
and the obvious question is what skills do they have to 
recognize mental illness and its manifestations in contrast to 
simple criminal misconduct.
    Ms. Leary. I think that is a very difficult situation, and 
I would say probably most police officers really do not have 
the kind of training that they would need to recognize that 
this is a person with a mental disability, not just someone who 
is committing a criminal act.
    That is where these teams come into play where you pair law 
enforcement officers with mental health professionals. They 
train as a team, and they respond as a team so that each has 
knowledge of the other's role at the scene, and they can assess 
the situation appropriately, and then if the right thing to do 
is to get that person some mental health treatment, instead of 
throwing them in jail, that should be the outcome.
    When I was a prosecutor here with the U.S. Attorney's 
Office in D.C. in the 1980's, police officers who would 
encounter people with mental disabilities would just lock them 
up and drop them off at St. Elizabeths, and that was the end of 
it, or else in the D.C. Jail. And that situation is the wrong 
thing for everybody, and, frankly, it is dangerous. It is 
dangerous to the offender, and it is dangerous to the police.
    Chairman Durbin. The second intake officer, the second 
level of intake, is likely to be our profession: lawyers, 
criminal defense lawyers who interview these patients. I cannot 
recall a moment in law school when anyone took the time to talk 
to me about what you should look for to recognize mental 
illness.
    What do you think about that?
    Ms. Leary. I do not think it is taught at law schools, 
although I think it certainly should be taught in places like 
law schools, especially if you are working in a clinic. Say you 
are doing a prosecution clinic or a defense clinic, or any kind 
of clinical work, you really should have that training, and 
that should be encouraged.
    I think attitudes about mental illness have improved in 
general, in the general public in the last few years, but we 
still have a long, long way to go.
    Chairman Durbin. What is your opinion of the impact of 
segregation and isolation on the mentally ill?
    Ms. Leary. I do not have any knowledge of that. I have not, 
you know, researched that. Common sense would tell you that if 
that isolation and segregation means that the person truly is 
isolated from human contact, that is an aggravating 
circumstance that I would think has great potential to 
aggravate a mental illness.
    Chairman Durbin. I have many more questions, but I know we 
have another panel and will not be able to go much longer. It 
is possible that some of these will be touched on in follow-up 
written questions, if it would be convenient for you, if you 
could respond.
    I would like to turn now to Senator Franken.
    Senator Franken. Thank you, Mr. Chairman. I just am going 
to do a few questions.
    First of all, it seems to me, Mr. Lappin, that you are 
saying that when mentally ill patients are put in isolation, it 
is really because they have acted out in a way that really 
affects the safety of other prisoners and of the guards at the 
prison, right?
    Mr. Lappin. Or themselves.
    Senator Franken. Or themselves, okay. And you are talking 
about--I hear about a ratio of psychiatrists to prisoners of 
one to a thousand. Is it fair to say that psychiatrists at the 
prisons sometimes feel a little overwhelmed?
    Mr. Lappin. Well, let me clarify a little bit. For those 
that would end up in isolation, they are at medical centers. So 
our ratio of mental health professionals to staff is much 
smaller. There is going to be an abundance of----
    Senator Franken. You are saying that there are not mentally 
ill prisoners who end up in isolation in prison?
    Mr. Lappin. In our general population facilities, it can 
happen. If someone becomes unstable during their period of 
incarceration at a general population facility, we are going to 
move them----
    Senator Franken. Are you confident that everyone----
    Mr. Lappin.--to a location where----
    Senator Franken.--with a mental illness has been diagnosed?
    Mr. Lappin. I am sorry?
    Senator Franken. Are you confident that everyone with 
mental illness has been properly diagnosed?
    Mr. Lappin. Well, I think there is always--with that many 
inmates, there is always a chance there would be a missed 
diagnosis. I go back to the key, and that is, early diagnosis. 
In our intake screening, it is not only a case manager who 
interviews the inmate. Within 24 hours there is a psychological 
assessment as well as a medical assessment, and then a follow-
up within 7 days.
    We also have a history, the pre-sentence report if there 
are indications there. So our psychology staff are alerted to 
that. So they can begin tracking whether or not a person has a 
mental health condition sometimes in advance of the inmate even 
arriving at the institution, because in advance of the inmate, 
we get all the court documents. And if those court documents 
reflect that, they are aware of that before the offender even 
arrives. But once they arrive, within 24 hours there is an 
assessment. And if the person is displaying that behavior upon 
intake, there is an alert made to our psychology staff who will 
then respond to them immediately--their highest priority is to 
respond to those who are displaying behavior consistent with a 
mental illness.
    So although it is not impossible for us to miss it, with 
thorough screening and competent staff and trained staff at all 
levels, we have a better chance of identifying those folks in 
advance. So if they become unstable and they end up in 
segregation at an institution and the psychologist there 
determines that I do not think this is the appropriate place 
for us to treat this person--sometimes they can, sometimes they 
cannot--they would refer them to a medical referral center. We 
would move that person to a location where there are more 
psychiatrists, more psychologists, more treatment staff. And 
typically that is where isolation occurs. And, again, isolation 
is the last resort, and we try to do it for the minimal amount 
of time to restore that person to the point that they are no 
longer a danger to themselves or somebody else. So that is how 
it works in our system.
    Senator Franken. I understand. There was one phrase you 
used, which was ``with that many prisoners.'' And I had asked 
Ms. Leary before, Do we have too many prisoners in prison in 
this country? And I believe we do. And I believe that it puts a 
burden on everyone, including the psychiatrists in these 
prisons.
    Mr. Lappin. Well, here is an example. We are going to add--
just to give you an idea how it works in this system, which is 
probably similar to your systems. Not only are there 208,000 
inmates, but we release 60,000 inmates a year. But we are going 
to admit this year 67,000 inmates. So we are going to add a 
7,000 increment to the base, and you can assume that within 
that 7,000 there are 1,500 who have a mental illness. So the 
number continues to grow, which puts an increased burden on 
those in institutions.
    So I go back to my original comment that early diagnosis, 
adequate resources in the institutions, and, as importantly, an 
issue we have not touched on is our inability--you are correct, 
most of these folks are going to release into our communities--
is the inability to find contract support facilities for 
reentry that provide the level of services for this unique 
group.
    So there are three groups of folks, to give you a idea: 
42,000 inmates in our system released back into the streets of 
the United States every year; 85 percent of those released 
through a halfway house. We believe the most appropriate manner 
in which to move someone from prison to the community is 
through a halfway house. The three most difficult groups to 
place, the 15 percent we are not getting, the vast majority of 
them are mentally ill inmates, sex offenders, and inmates who 
are very violent and disruptive even toward the end of their 
sentence.
    Let us just focus on the mentally ill. Why is it difficult? 
Again, because many of them are going to rural locations, where 
there may be a halfway house, but they do not have the 
wherewithal, they do not have the resources available in that 
halfway house to care for that individual who has unique mental 
health concerns, as well as the challenges we face in our more 
urban areas where it is very expensive. They struggle getting 
the resources necessary, because our contracts require that.
    So here we are, we have this mentally ill inmate who is 
going to release, and we prefer to put them into a halfway 
house to transition out, acquire the services they need, 
whether it is for medication, whether it is for treatment or 
ongoing therapy, before they go to the street. But we lack the 
services in many of those locations. And, consequently, the 
inmate goes to the community.
    One last issue: too many communities that continue to 
resist the fact that their citizens who happen to be offenders 
are going to return home. In some cases, we actually have to 
litigate to convince them to put a residential reentry center 
in their communities. And a consequence is these folks go 
directly to the street.
    Now, again, I think that common sense would tell you that 
it is much wiser of us to transition especially these more 
challenging folks out through halfway houses than for us to 
give them $100 and a new suit and throw them on the street 
corner.
    I can tell you, in my community I prefer to have more 
supervision than that. But, again, we have many communities out 
there that continue to resist and say not here, not in my back 
yard, and it is kind of like out of sight, out of mind, I do 
not want them here. And that is reality. That is tragic, but it 
is the truth. And it is even more complicated when you have the 
mentally ill, the sex offenders, and the more violent offenders 
who are going to go directly into our communities.
    I did not mean to get off track, but that is an area we 
really have not touched on. But I think it is critically 
important, because as we have all said, most of these folks in 
local, State, and Federal prisons, they are going to go home at 
some point in the future.
    Senator Franken. They almost all go home.
    Now, just one last thing to wrap up. Ms. Leary, the Office 
of Justice Programs' mission is to provide leadership and 
services and grant administration and criminal justice policy 
development to support local, State, and tribal justice 
strategies to achieve safer communities. That is in your 
testimony.
    Ms. Leary. Yes, sir.
    Senator Franken. So you have an overview of the whole 
prison system, right?
    Ms. Leary. We work with the State and the local prison 
systems, that is right. And we also work with the National 
Institute of Corrections.
    Senator Franken. Okay. So I am going back to this deal 
where we are talking--Mr. Lappin says eventually most of them 
get out, right?
    Ms. Leary. Right.
    Senator Franken. So we have got people we are putting in 
the system, and then they come out. In your opinion, do they 
come out better than they went in? And this goes, again, to my 
opinion that we have too many people in prison in this country. 
And I was struck with your talking about drug courts and mental 
health courts, which I was not aware of. So I guess it is--can 
you just respond to what you think I am getting at?
    [Laughter.]
    Ms. Leary. Sure, I would be happy to. I think that there 
are many far better alternatives than incarceration for those 
who should not be incarcerated, so we are not talking about the 
most serious, violent offenders and those who really are big 
risks to public safety.
    One of the things that the Office of Justice Programs works 
on is helping communities figure out what these alternatives 
are and how can we improve public safety in our communities 
without locking everybody up. And it runs the gamut, and you 
have to look at the whole spectrum from prevention to 
alternatives which include all the problem-solving courts that 
we work on, like drug courts and veterans' courts and mental 
health courts and so on, to provide people with the resources 
and the treatment they need so that they will not end up in 
prison, because the chances of them getting what they need 
while they are in prison are much slimmer than they are if you 
have a really effective community-based program to deal with 
people's issues.
    Then, again, as I said, you have to look at the whole 
spectrum, and that is where I think reentry is so important for 
those who do end up incarcerated. Reentry planning has to start 
right from the time of sentencing and follow all the way 
through your term of incarceration and back out into the 
community.
    Senator Franken. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lappin. May I add to that? There are some people that 
belong in prison.
    Senator Franken. Absolutely.
    Mr. Lappin. And we will send you some research for the 
record that reflects the availability of programs to focus on 
skills they lack result in fewer of them coming back to prison. 
So for those that need to be in prison, the availability of 
programs and opportunities to improve on the skills they lack, 
it is shown, results in fewer of them returning to prison--
better educated, have a vocational skill, learn work skills, 
learn to manage this mental illness that they sometimes come to 
prison with, because that is probably, in part, part of the 
problem for this unique group. We try to put programs in place 
that teach them how to manage their mental illness, and there 
is an array of other skills they lack. And we will send the 
research for the record that reflects that the availability of 
those programs and the willingness of those to volunteer and 
participate typically results in fewer of them returning to 
prison. And that is why we have a little bit lower recidivism 
rate than what you are seeing on the average.
    Thank you.
    Chairman Durbin. Mr. Lappin, let me thank you for that last 
comment and add what probably does not need to be said but will 
be said. The safety and security of the people who are working 
in our prisons is the highest priority, and I do not think 
anything we have said today should diminish from that 
commitment, which we all have, to that end. And for those 
correctional officers who literally risk their lives in this 
business, that is the first thing: to make certain that they 
are safe. And the safety of America at large, of course, is an 
equally important priority. I think we have raised some 
interesting and challenging questions about those who are 
released from prison and the likelihood that they will commit 
another crime, find another victim. We certainly want to 
diminish that as much as possible.
    You mentioned during the course of your testimony that you 
are open to ideas. The Gawande article talks about things that 
are being done in Britain today as an alternative to our 
incarceration model. I do not know if you have had a chance to 
look into that, but it is at least worth a discussion, probably 
at another time in another setting. But I want to thank this 
panel, an excellent panel, for the testimony given. I am told 
it is extraordinary for the Department of Justice to make this 
kind of commitment, for several people to come forward for this 
kind of a hearing, and I appreciate it very much. You will 
receive some written questions, which I hope you can respond to 
in a timely fashion. Thank you all.
    Chairman Durbin. We are now going to welcome our second 
panel, four distinguished witnesses, who will now come to the 
table. If you would just remain standing for a moment, I will 
not have to ask you to stand up again.
    If you would please raise your right hand, do you affirm 
that the testimony you are about to give before the Committee 
will be the truth, the whole truth, and nothing but the truth, 
so help you God?
    Mr. Maynard. I do.
    Mr. Randle. I do.
    Justice Zenoff. I do.
    Mr. Fuller. I do.
    Chairman Durbin. Thank you. Let the record reflect that all 
four witnesses answered in the affirmative.
    Our first witness Gary Maynard, Secretary of the Maryland 
Department of Public Safety and Correctional Services, has over 
30 years of experience in the field, having served as Director 
of Corrections in three other States--Iowa, South Carolina, and 
Oklahoma. He was also the President of the American 
Correctional Association and a member for 32 years of the Army 
National Guard, having served as the Adjutant General to the 
Oklahoma Army and Air National Guard. Mr. Maynard is a native 
of Oklahoma, holds a master's degree from Oklahoma State, a 
bachelor's degree from East Central University in Ada.
    Mr. Maynard, thanks for being here. Please proceed.

STATEMENT OF GARY D. MAYNARD, SECRETARY, MARYLAND DEPARTMENT OF 
   PUBLIC SAFETY AND CORRECTIONAL SERVICES, TOWSON, MARYLAND

    Mr. Maynard. Thank you, Mr. Chairman, Senator Franken. My 
name is Gary Maynard. I serve as Secretary of the Maryland 
Department of Public Safety and Correctional Services. I have 
been involved in corrections for 39 years, working in five 
States and the Federal Bureau of Prisons. Early in my career, I 
served as a prison psychologist. I rose through the ranks of 
management, serving as warden on two occasions, and eventually 
serving as the head of corrections in four States. I am the 
Immediate Past President of the American Correctional 
Association, an active member of the Association of State 
Correctional Administrators, and have worked closely with the 
American Jail Association over the past several years. All 
three of these national recognized organizations have provided 
data for the testimony I will offer today.
    Correctional administrators across the country have an 
obligation to provide effective programming for all offenders. 
Over the past three decades, we have witnessed an increase in 
the number of inmates possessing mental health issues entering 
the criminal justice system. Many researchers point to the 
depopulation of the State-operated mental hospitals in the late 
1960's as one of the contributing factors to this trend.
    In 1959, there were over 550,000 mentally ill patients 
residing in State-operated mental hospitals. This number is now 
less than 80,000. During this same period of time, we have seen 
the number of incarcerated individuals quadruple to close to 
2.5 million annually.
    Corrections certainly does not dispute the concept of 
offering comprehensive community-based services to individuals 
with mental health needs. However, insufficient resources have 
led to an increase in the incarceration of these individuals, 
and the resources available to us are lacking.
    The American Jail Association estimates that there were 
over 650,000 bookings of persons with some type of mental 
illness in 2008. A study by the Bureau of Justice Statistics 
estimates that more than half of the prison population has 
mental health issues. This population is at higher risk of 
incarceration due to a number of factors, including substance 
abuse. Law enforcement and correctional staff lack the training 
and education necessary to work with this population 
effectively.
    A study of Washington State prisons found that while only 
18 percent of their inmate population was classified as 
mentally ill, they accounted for 41 percent of the reported 
infractions. Lack of training and sufficient staff to work with 
the population leads many correctional agencies to use 
disciplinary segregation as a tool to manage the population. 
This type of isolation sometimes proves destructive to certain 
members of this population.
    Please understand that corrections professionals do not 
believe in abandoning this population and do not feel that 
segregation by itself is a useful practice. Though we believe 
strongly that the mental health system should hold the primary 
responsibility for this group, we understand that many of these 
become sentenced to our prisons and jails. We must make solid 
investments in working with this population.
    Leadership has come from our national associations who have 
developed policies and standards to guide correctional 
administrators in the treatment of mentally ill offenders. 
State and local corrections have adopted a number of methods to 
identify and provide appropriate treatment for this population.
    In Maryland, the Montgomery County Department of 
Corrections and Rehabilitation has served as a model in the use 
of a comprehensive screening and referral process that is 
overseen by public mental health professionals. In our 
department in Maryland at the State level, we have improved our 
methods to identify these inmates at intake. We have developed 
a system to share information with the Baltimore Mental Health 
System in order to protect our staff and prescribe appropriate 
treatment.
    Corrections agencies across the country have invested in 
services to carry the inmates from incarceration to reentry 
back into the community. In Cook County, Illinois, the Adult 
Probation Department's Mental Health Unit employs officers with 
a mental health background to assist clients in accessing 
disability benefits upon release.
    The Wisconsin Department of Corrections works with 
community advocates to assist inmates in filing applications 
for Medicaid benefits before release.
    In Pennsylvania and Minnesota, reentry staff work with 
their psychologists and community providers to ensure that 
there is support available to returning offenders.
    In Maryland, our department partnered with the Mental 
Health Association to pass legislation at the State level to 
provide 30 days' worth of medication for offenders being 
released in the community. Local health departments across the 
country have joined in release planning, staking a claim in the 
future of these individuals.
    Each of us in the corrections profession does what we can 
given our respective resources, but we know that more is 
needed. Work has been done at the Federal level to assist us. 
In 2004, the Mentally Ill Offender Act was signed into law to 
provide agencies with the necessary resources to care for this 
population. However, due to limited funding, many corrections 
applications have been denied. In the period of 2006-08, only 
11 percent of all applicants received funding.
    Corrections agencies need funding and technical assistance 
to continue building collaborative relationships to properly 
care for this population. The corrections field needs the 
Federal Government to define a clear role on behalf of this 
population.
    Specifically, we would benefit from supplemental funding 
for medication in prison, enhanced protocols, and proper 
training for our staff. We know these things exist, but working 
to provide a coordinated approach would greatly strengthen to 
serve this population.
    We would encourage the Substance Abuse and Mental Health 
Services Administration to take the lead in working with 
corrections and public health agencies. We understand the 
complexity of this population, but we know that funding, 
coordination, and Federal support will be a great step forward. 
I know corrections leaders across the country are ready to 
continue to identify effective practices to support the needs 
of this population.
    Thank you for inviting me to testify today. I would be 
happy to answer questions at the appropriate time.
    [The prepared statement of Mr. Maynard appears as a 
submission for the record.]
    Chairman Durbin. Thanks, Mr. Maynard.
    The next witness is Michael Randle, Director of the 
Illinois Department of Corrections, operates 28 adult 
correctional centers, responsible for 46,000 adult inmates; 
previously served for 19 years in the Ohio Corrections System, 
most recently as Assistant Director of the Ohio Department of 
Rehabilitation and Corrections; a bachelor's degree from The 
Ohio State University and a master's degree from Ashland 
University.
    Mr. Randle, thanks for coming from Illinois to be with us 
today, and please proceed.

 STATEMENT OF MICHAEL P. RANDLE, DIRECTOR, ILLINOIS DEPARTMENT 
             OF CORRECTIONS, SPRINGFIELD, ILLINOIS

    Mr. Randle. Thank you, Mr. Chairman, for this opportunity 
to speak with you. Thank you, Senator Franken.
    Prior to my appointment in Illinois, I served as Assistant 
Director in the Ohio Department of Rehabilitation and 
Corrections. In conjunction with the Ohio Department of Mental 
Health, I had oversight responsibility over a Community Linkage 
Program, which was charged with providing continuity of mental 
health care to mentally ill persons entering and leaving the 
prison system.
    The issue of mental illness in our prisons and jails is 
both complex and pervasive. In fact, a recent study conducted 
by the Bureau of Justice reported that up to 16 percent of the 
prison and jail populations are afflicted with mental illness, 
which is approximately four times higher for men and eight 
times higher for women than in the population at large. This 
disproportionate representation is primarily a result of 
policies that have shifted the emphasis from community-based 
treatment of the at-risk populations and priorities that have 
diverted resources away from treatment providers.
    In recognition of these problems, Congress enacted the 
Mentally Ill Offender Treatment and Crime Reduction Act in 
2004. The act required collaboration between justice and mental 
health program providers to help States and counties to design 
and implement collaborative programs within their communities 
regarding mental health treatment. While the Act authorized $50 
million to be granted toward these efforts, only $21.5 million 
has been appropriated between fiscal years 2006 and 2009. Due 
in part to this lack of funding, coupled with record deficits, 
States and counties have found themselves in dire circumstances 
with respect to treatment and management of the mentally ill.
    In 1995, the State of Ohio created the Community Linkage 
Program, which was designed to facilitate mental health care 
for persons entering or leaving the prison system by assisting 
in policy development, providing information sharing, 
monitoring outcomes, and providing assistance. In essence, this 
program was created as a result of recognized and demonstrated 
need and out of legal necessity.
    At its core, the program is designed to bridge the gap 
between State and local criminal justice and mental health 
services; it provides a consistent, sustained link between 
these entities from the moment offenders enter the criminal 
justice system to the time that they are released into the 
community.
    Like other States, Illinois prisons and jails are facing 
crisis levels with regards to mentally ill offenders. Recent 
figures indicate that between 20 to 25 percent of the inmate 
population in Illinois are carried on the mental health 
caseload, with 12 percent requiring psychotropic medication. 
This large caseload, along with fiscal challenges and 
inadequate community resources, has created difficulties with 
managing these offenders while incarcerated, as well as 
difficulty in providing reentry services.
    The Illinois Department of Corrections has historically 
issued a 14-day supply of psychotropic drugs to offenders upon 
release. Unfortunately, it usually takes a few months for such 
offenders to acquire access to the mental health services that 
they need; this gap from access to services can and does lead 
to decompensation and often recidivism. In light of this, the 
department has begun to initiate a linkage program similar to 
that of the Ohio Linkage Program.
    As director, I recognize that the challenges of providing 
proper care for mentally ill offenders while protecting them 
from themselves and the community will be ongoing. At both the 
national and State levels, we have made significant progress in 
recognizing and dealing with this issue. However, more needs to 
be done.
    With the passage of the Mentally Ill Offender Treatment and 
Crime Reduction Act, we have a vehicle to help provide these 
resources. I respectfully ask that you fuel this vehicle and 
fully fund the program.
    Thank you very much for allowing me to come before the 
Committee, and I will be obliged to answer any questions that 
the Committee may have.
    [The prepared statement of Mr. Randle appears as a 
submission for the record.]
    Chairman Durbin. Thank you, Director Randle.
    Kathryn Zenoff is a Second District Appellate Court Judge 
in Illinois. She served as presiding judge of the Criminal 
Division and Mental Health Court in the 17th Circuit. She is 
the national co-chair of the Judges Leadership Initiative for 
Criminal Justice and Mental Health Issues. Justice Zenoff has a 
bachelor's degree from Stanford University and a law degree 
from Columbia University Law School.
    Thanks for coming from Illinois. Please proceed.

  STATEMENT OF KATHRYN E. ZENOFF, PRESIDING JUSTICE, ILLINOIS 
      APPELLATE COURT, SECOND DISTRICT, ROCKFORD, ILLINOIS

    Justice Zenoff. Chairman Durbin, Senator Franken, I am 
grateful for opportunity to share my perspective. I hope that 
my experience is valuable to you. It may be somewhat unique as 
I can speak from the vantage points of having organized a 70-
person community task force in Rockford, Illinois, to address 
the revolving-door syndrome of persons with mental illness 
being incarcerated in our jail in disproportionate numbers; of 
having presided for 2-plus years over a mental health court, 
which Senator Durbin visited a couple of years ago; of having 
collaborated with the Illinois Department of Human Services 
Division of Mental Health on a statewide mapping project to 
identify gaps in services for criminal justice-involved persons 
with mental illnesses; and of having the privilege of serving 
as the national co-chair of JLI.
    Mental health courts--that is, specialized dockets based on 
therapeutic justice or approaches that address an offender's 
behavior and root causes--are relatively new. Long-term data on 
the effects of these courts on recidivism and public safety are 
not yet available, but the short-term reports reinforce their 
value and I think warrant continued, even increased, funding.
    Participants seem to be positively motivated to take 
responsibility for their own recovery. Jail and hospital days 
are greatly reduced, resulting in cost savings. I recall one 
50-year-old man released from jail to our therapeutic 
intervention program, or TIP court, who was diagnosed as 
schizophrenic. He believed himself to be a retired army general 
and barked orders at me when he came into court. In a regular 
courtroom, he would have been held in contempt. But in this 
therapeutic setting, our team of legal and mental health 
professionals worked with him until he steadily took his 
prescribed medication, participated in therapy, and was able to 
assume more responsibility for his own life and recovery. He is 
now living semi-independently and is no longer delusional. He 
has not had any contact with the criminal justice system in 
2\1/2\ years.
    This story can be repeated numbers of times in the now over 
175 mental health courts in the country. Yet recent statistics 
still show disproportionate numbers of persons with mental 
illnesses in our jails. Stigma is still attached to mental 
illness.
    We all know more needs to be done. How do we move forward? 
What should be our focus for study and action?
    We must continue to look for new ways to reverse the 
criminalization of mental illness and to improve public safety. 
Aware of that challenge, we have just established the Mental 
Health Court Association in Illinois to improve our 
coordination of statewide efforts. This is the first 
organization of its kind in the country.
    We know that our jails and prisons have become the so-
called ``safety nets'' of our unfunded and underfunded system 
of community mental health care in this country. Now is the 
time to focus our attention and our resources on continuity of 
care, establishing key linkages, and in funding the gaps in 
services. A few of my recommendations are:
    First, in expanding funding for mental health courts and 
diversion programs, which do provide the structure for 
integrated treatment outside of our jails and prisons, we 
should focus on wrapping our returning veterans into these 
programs as their mental illnesses and substance abuse problems 
put them at risk for entering the revolving door in and out of 
our jails.
    Second, we must improve the screening and mental health 
services in our jails. We know how expensive it is to house 
prisoners, especially those who are mentally ill. Using 
screening tools at booking may more readily identify those 
inmates. Needed medication and treatment can then be provided, 
resulting in earlier releases. What often happens, as we have 
heard today, is that inmates with mental illnesses act out due 
to their symptomatology and threaten guards and other inmates. 
Any good time they may have accumulated is taken away. 
Additional training for staff and separate pods may help. 
Sharing information between departments of human services and 
corrections, such as the Illinois Data Link Project, can help 
identify those prisoners who have a mental illness.
    Best practices, SAMHSA's best practices--that is, a blend 
of the best research and clinical experience in the area--
suggest an integrated approach to treatment of persons with 
mental illnesses in the criminal justice system. That includes 
not only medication and therapy but supported employment, 
supported housing, and trauma-informed services. To my 
knowledge, Medicaid does not cover these costs or covers them 
in a very fragmented way. A fresh look at this situation would 
be in order, along with allowing reimbursement for the case 
management linkage piece of release planning and diversion from 
our jails.
    Also, funding for Centers of Excellence on a statewide or 
even a regional basis would be important. These centers could 
facilitate necessary research and examination of best 
practices, help coordinate efforts at cross-disciplinary 
training for professionals, including police officers working 
in the field. They could involve consumers and NAMI.
    My other recommendations have been submitted to the 
Subcommittee in my full statement and include funding for 
technical staff assistance to JLI, our judges organization that 
has made significant contributions all across the country. 
Resources may be more limited than we would like, but we must 
persevere.
    In closing, I would like to share with you some sage advice 
by retired Illinois Chief Justice Mary Ann McMorrow to a group 
of new judges. These words describe very well why I as a judge 
feel compelled to be involved and committed. Justice McMorrow 
offered this:
    ``As judges, we look beyond the legal formalities of a 
particular dispute, to remain aware of the human dilemma that 
underlies almost every case brought before us, and always 
within the bounds of our authority try to resolve the problems 
presented to us in a manner that satisfies both the legal and 
the human aspects of the case. Let us not forget that the law 
is first and foremost about human beings and their problems.''
    Thank you, Mr. Chairman and Senator Franken, for the honor 
and the privilege of being here today and assisting in this 
important work.
    [The prepared statement of Justice Zenoff appears as a 
submission for the record.]
    Chairman Durbin. Justice Zenoff, thank you for being with 
us.
    Our last witness, David Fuller, is an outreach and housing 
coordinator for the Manhattan Outreach Consortium. Previously, 
he worked as the Director of the Supportive Housing Program for 
Community Access and a peer specialist for Bellevue Hospital's 
psychiatric inpatient service.
    Mr. Fuller is a consumer in recovery from psychiatric 
disability and substance abuse who spent about 20 years cycling 
in and out of jail. Mr. Fuller now works to improve access to 
services for people with mental illness. He is a member of the 
National Leadership Forum on Behavioral Health and Criminal 
Justice.
    Mr. Fuller, the topic of today's hearing has affected your 
life like it has no other witness. Thank you for being here 
today and having the courage to tell your story. Please 
proceed.

STATEMENT OF DAVID L. FULLER, OUTREACH AND HOUSING COORDINATOR, 
       MANHATTAN OUTREACH CONSORTIUM, BROOKLYN, NEW YORK

    Mr. Fuller. Mr. Chairman, Senator Franken, I want to thank 
you for allowing me to testify today, and other distinguished 
members of the Committee that are not here today. I submitted 
written testimony, but there are some things I would like to 
talk about that are not in the written testimony.
    In my trip down here, I was thinking about an occasion when 
I was in the Suffolk County Jail in the early 1990's, and I 
suffer with major depression, or I used to suffer with major 
depression. Today I manage it and live a very full life. But 
back then, things were not going so well, and I was homeless. I 
got arrested for petty larceny. I had stolen something to eat 
and some baby formula for my child at the time. I was arrested, 
put in Yaphank Jail, been up 3 or 4 days. I was also abusing 
substances at the time, wasn't very clean, depressed, 
preoccupied with my own death, most of the time. I viewed it as 
not having enough courage to actually take it out at that time.
    When I got to Yaphank Jail, all through this time no one 
asked me did I have a mental illness or a substance abuse 
problem. I saw no opportunity to reach out for help to a 
medical professional. While I was in the holding cell going 
through the intake process, an officer yelled out something at 
me, and I was hearing voices, too. Isolation back then used to 
create psychotic episodes for me, especially when I was sent to 
the box. And I think he had told a group of us to get up, stand 
up from the bench, and I didn't stand up fast enough. And one 
of them punched me in the head, threw me to the ground. I was 
handcuffed behind my back, and then one of the officers saw fit 
to jump off the bench into my rib cage and broke two of my 
ribs.
    I was put in the box after this and left there. In my mind, 
not to be too dramatic, but I felt I was left there to die. I 
had no visitors. The medical personnel were not allowed to see 
me. I could hear them talking at the door. The officers would 
not let them in. I later found out when my family was looking 
for me, I was told, they were told I was not in the jail.
    What saved me was I had a warrant for petty larceny in New 
York City at the time. The officers came to get me because my 
name was in the system. I come to find out later those New York 
City police officers had a hard time getting me out of Yaphank 
Jail. When I was finally produced, they basically looked at me 
and asked the Suffolk County officers, ``What is this? What 
happened to him? '' And I really do not remember what they 
said. All I know is they laid me down in the back seat of their 
car, took me to the next county, Nassau County, and I stayed in 
Nassau County Medical Center for another 10 days.
    The first 3 days, the doctors were going back and forth of 
whether they would have to put a tube in my chest because my 
lung was collapsing at the time. Luckily, that did not happen.
    The sad thing is this was not a unique experience in my 
time in jail. I spent 6 to 8 years cumulatively in city jails 
in New York City. The sad thing is that there are a lot of my 
peers that are not able to testify before you because they are 
no longer with us. They either committed suicide in jail or 
after they got discharged out of jail.
    It is difficult to talk about this topic without thinking 
about the other more complicated, overlapping issues of racism, 
social and economic disability, cultural incompetence when it 
comes to getting services within the jail system. And I think 
that is like a sarcastic statement when I say ``getting 
services within the jail system,'' because you really do not.
    There is no HIPAA inside a jail. There is no privacy in 
your care. I put in my written testimony, I remember the first 
time that I got the courage up, you know, to tell people about 
what was going on with me, my suicidal thoughts, my complete 
engulfment in hopelessness, that I would put in a pen with 30 
other guys, you know, officers would yell out, ``Fuller, are 
you here to see the psychiatrist or the medical doctor? '' If I 
wanted to see the psychiatrist, I would have to acknowledge in 
front of 30 or 40 people that I did not know that that is what 
I was doing.
    When I met with the psychiatrist, it was in a little 
cubicle, you know, like in an office pool or something, no 
solid walls, no door, expected to talk about the most personal 
aspects of my life. I could hear other so-called medical 
professionals talking about previous patients and their 
personal information, and it scared me. I said, ``Well, when I 
leave, are they going to be talking about my information the 
same way they are talking about others? '' So I would kindly 
shut my mouth and not really discuss the issues that were going 
on with me.
    A few times I took medication in jail. It is a very 
embarrassing situation. In Rikers Island, when you go to 
medication, you are standing on a line with--I do not know--50 
to 100 other inmates, other inmates going on the other side of 
the hall. You are taking your medication right there in front 
of everybody at a window. Everybody knows what you get. There 
are other illicit activities that go on in the medication line, 
you know, the selling of illicit drugs, selling of medication, 
things like that.
    I really, you know, have to reiterate my experiences are 
not the worst experiences. I have been in the box three or four 
times. I became psychotic in the box twice. My diagnosis does 
not carry psychosis with it. I have not been psychotic since I 
have been in jail. But the isolation, combined with the 
depression, did create a couple of episodes for me.
    I did attempt suicide in jail one time. An inmate found me 
and untied my neck. He did not tell the officers because just 
like I knew, to tell them what happened would just exacerbate 
the problem. I would have been put on suicide watch, which was 
basically the box, and isolated and probably would have felt 
worse, if possible, than I already did. I do not know him name 
today, but I always thank him for that.
    What helped me was the last time I was in jail I was asked 
by someone did I consider treatment, and I told the person 
directly that if I couldn't go to some place that would address 
my psychiatric disability and my substance abuse, it was really 
a waste of time. I had graduated three long-term drug treatment 
programs at this time, countless rehabs and detoxes. I really 
can't remember how many-20, 30, 40.
    It is painful. Every failed treatment episode is very 
painful for a person, and at this point I just could not endure 
another failed treatment episode. I knew what I needed. The 
services just were not out there for me.
    This person actually said, well, we have something called a 
MICA program--and a MICA program stands for Mentally Ill 
Chemically Addicted residential program--would I be interested 
in that. I said yes. I sat in jail for another 2 months on a 
misdemeanor waiting for the service. But the good thing is when 
I got out, got engaged, I was able to get around people like me 
with similar experiences, got support, saw a doctor, got 
medication, got stable, decided I wanted a job, decided I 
wanted a family, became a father, a husband, a citizen, a man 
again, regained my role in the community.
    For many years, the State, city, and Federal Government 
have been wasting their money incarcerating and paying for 
inadequate services for me. Through my lifetime I easily have 
spent a million dollars of the Government's money that did 
absolutely no good for me. I think it is a travesty, you know. 
Today, you know, I pay taxes instead of taking out of the tax 
coffers. I try to help people with similar experiences that I 
do.
    But I think what is needed is, like I heard some of the 
other panelists talking about it, it is really about supportive 
housing, employment, adequate community services. Yes, there 
are too many people in jail. There are too many people in jail, 
and I do agree that there are a small number of people that 
thank God there are jails. You know, I met these people. Some 
people really need to be in jail. But 80 percent do not. 
Seventy to 80 percent of the people in prisons today are either 
there for drug offenses or committed the offenses while under 
the influence of drug and alcohol. A majority of these people 
have underlying childhood trauma, physical and/or sexual abuse.
    I think one of the things that allowed me to recover to the 
extent I did is that my trauma was not experienced in the home. 
I had great parents, loving parents. I have three siblings. All 
of them have post-graduate degrees, live very successful lives.
    I did not respond to the violence and the racism in the 
1960's as well as my siblings did. You know, I watched people 
beaten and killed when I was 6 and 7 years old because of the 
color of their skin. I went to all-white schools through 
elementary and high school because my parents wanted a better 
public education for me. I did not have the courage to tell 
them what names I was being called there, that, you know, I was 
attacked pretty regularly there and suffered injuries behind 
those attacks. I wanted to be a man. I wanted to stand up for 
myself, even as a boy.
    I can recall suffering with depression ever since 10 or 11 
years old because I was very hopeless in things ever changing 
for me. I distinctly remember when they killed Martin Luther 
King that I lost hope in the country, I lost hope in having a 
different future. And I am not saying everybody responded to 
things the same way. This is the way that I responded. I think, 
you know, I am a sensitive person by nature.
    I would just like to say that we really need to focus on 
alternative to incarceration programs. I went through one. It 
changed my life. I went to MICA treatment, got around people 
that understood me, got on medication, went to therapy. The 
reason I was able to go there was because I went through a drug 
court that allowed me to finish my time in there, and if 
successfully completed, dismissed the case against me.
    Chairman Durbin. Mr. Fuller, I have given you----
    Mr. Fuller. I am sorry.
    Chairman Durbin. I have given you more time than others--
intentionally.
    Mr. Fuller. Right. No problem.
    Chairman Durbin. You deserved it because you have a 
perspective on this none of us have. But I want to have a 
chance to ask some questions and ask you to react and others to 
react to your life experience.
    Mr. Fuller. Sure.
    Chairman Durbin. But I really appreciate your coming. I 
seriously do, and I want to make sure we get everything done 
here before we have to wrap it up today. But thank you for 
coming, and sit tight, we have got some questions for you. 
Okay?
    Mr. Fuller. Thank you.
    [The prepared statement of Mr. Fuller appears as a 
submission for the record.]
    Chairman Durbin. The first question I am going to have is 
one that I have asked some of the experts, and you are the only 
one at the table in either panel that can speak from firsthand 
experience. It is a real basic, open-ended question. What is 
the impact of isolation on the mentally ill?
    Mr. Fuller. It is cruel and unusual punishment. I was 
shocked to hear some of the replies that the other panelists 
gave. Almost invariably people with mental illness in isolation 
get worse. I do not know many who stay stable.
    Chairman Durbin. Should there be a limit? I mean, you 
understand why they do it in some cases.
    Mr. Fuller. I do.
    Chairman Durbin. Should there be a limit?
    Mr. Fuller. I do not think it is a simple answer. I think 
they should never be there in the first place. Isolation does 
serve a purpose, a safety purpose for inmates and officers. I 
think the problem is that these people are being punished 
because they are sick, and they are in a jail that they should 
not have ever been in in the first place.
    Mental illness is highly underreported within inmates 
because inmates understand the consequences by going public. So 
I guess my question is that--I do not have an answer to limits, 
but I will say it is cruel and unusual punishment, and I have 
not been psychotic since I got out of isolation.
    Chairman Durbin. Mr. Maynard, you were on the 2006 
commission I talked about earlier that said that there should 
be a limit to this.
    Mr. Maynard. Yes, sir.
    Chairman Durbin. I would like to ask you to react to the 
same basic question. What is the impact of isolation on the 
mentally ill?
    Mr. Maynard. I think it causes deterioration with mentally 
ill inmates. I think it makes their conditions worse. I agree 
with a lot of the testimony that we in the prison system, as a 
need to deal with violence, inmates who would be dangerous to 
staff or to other inmates or to themselves and who misbehave, 
we put them in isolation.
    I think as a rule we typically keep people longer than they 
should be on isolation. In some cases, they need to stay a long 
time just for everybody's protection. In other cases, they need 
to move more quickly through disciplinary and administrative 
segregation.
    But, again, I do not think there is any question about the 
impact of isolation on the mentally ill. I think that is 
something that most corrections directors would say is 
something that we need some solutions in order to move away 
from that.
    Chairman Durbin. For the record, Mr. Randle is new to his 
position with a new Governor in our State, and he has been 
assigned a pretty tough assignment to take a look at the Tamms 
Correctional Facility, our supermax State facility.
    According to the Belleville News-Democrat--and you can 
correct this report if it is wrong--54 inmates at Tamms have 
been held in solitary confinement for more than 10 years, 
including 39 who have been there since 1998 when the prison 
opened. George Wellborn, the first warden at Tamms, said, ``I 
think they should have been given an opportunity to go back to 
a reduced security facility. It was not intended to be a place 
where guys would be there for 8 to 10 years.''
    Mr. Randle, should there be a limit on how long an inmate 
can be held in isolation in Tamms?
    Mr. Randle. Thank you, Chairman. First of all, I think 
there should be a limit in terms of how long a person could be 
held in isolation. I would also add the number of 54 inmates 
being held at Tamms since--I believe it was 1998, that is an 
accurate number that comports with my review.
    Chairman Durbin. Accurate or inaccurate?
    Mr. Randle. It is accurate.
    One of the first things that Government Quinn asked me to 
do is do a comprehensive review of the conditions at the Tamms 
Correctional Facility. Even prior to my formal start as 
director, I began to gather information. In fact, my second day 
on the job, I spent about 9 hours at Tamms, walked through 
every cell block, talked to over 50 inmates at Tamms, spent an 
entire day looking at the operations in Tamms.
    From that, and other research over the past 2-1/2 months of 
my tenure as director, I have recently submitted--in fact, just 
last week--a report to the Governor with a second of ten 
recommendations for reforms at the Tamms supermax facility. One 
of those recommendations involves the release or the beginnings 
of a step-down process for approximately 48 inmates who have 
been in Tamms between the 1998 and 2004 period.
    So, indeed, I did have a concern about the extended stay of 
offenders, among several other operational things that I 
discovered at Tamms.
    Chairman Durbin. How many of those inmates at Tamms or any 
other part of the Illinois correctional system who have been 
held in isolation for extended periods of time--let us say 
beyond 1 month, for example--would you classify as mentally 
ill, for example, using as an objective criterion, whether they 
are receiving psychotropic medication?
    Mr. Randle. On any given day, there are about 4,500 
offenders in the Illinois correctional system that have a 
diagnosis of a mental illness. Of that population, about 12 
percent of the--I am sorry, about 12 percent of the entire 
population, 45,000 are on psychotropic medications.
    There is and continues to be times where those inmates wind 
up in isolation for various periods of time. I think the key 
for me as a director is to ensure a couple things: Number one, 
that we have clinicians making decisions about whether or not 
an offender is appropriate for isolation.
    I think one of the things that sometimes gets overlooked is 
that there are various degrees of mental illness.
    Chairman Durbin. Well, how many staff psychiatrists do you 
have in the Illinois Department of Corrections?
    Mr. Randle. There are no State-employed psychiatrists. We 
have a contract provider that provides psychiatric services to 
our entire system. Those ratios, there is at least one full-
time psychiatrist assigned to every facility. Some facilities 
have more than one full-time psychiatrist assigned to them. It 
is based on full-time equivalents rather than a specific 
number, Chairman.
    Chairman Durbin. I am just looking here to make sure I find 
out how many--you have 28 facilities.
    Mr. Randle. Yes, sir.
    Chairman Durbin. So you are saying there are 28 full-time 
psychiatrists under contract to the Department of Corrections?
    Mr. Randle. There are 28 full-time equivalent 
psychiatrists, yes.
    Chairman Durbin. That is what I meant, under contract.
    Mr. Randle. Yes.
    Chairman Durbin. The same thing. I hope that is the same 
thing. And so that roughly means that you have--let me try to 
do some math here quickly -1,500 patients for every 
psychiatrist?
    Mr. Randle. That potentially could sound about right.
    Chairman Durbin. It sounds like a heavy caseload.
    Mr. Randle. Yes, it does.
    Chairman Durbin. And so let me ask you this: What is your 
opinion of the impact of isolation on the mentally ill?
    Mr. Randle. I think it can cause decompensation in 
offenders.
    Chairman Durbin. You might define that term for us, please.
    Mr. Randle. It can cause your mental health condition to 
worsen. In some cases, it could lead to suicidal tendencies. It 
could lead to exacerbate your mental health condition, or make 
it worse.
    I think, though, the key, at least from my perspective, 
again, is to ensure that access to clinicians is available 
whether you are in segregation or whether you are in general 
population, and that does not always just mean a psychiatrist. 
I want to emphasize that. There are psychologists, there are 
licenses clinical counselors. There is an array of mental 
health clinicians that all provide services to the population.
    Chairman Durbin. My last question in this round, and if you 
do not mind, I will come back and perhaps want to ask Judge 
Zenoff and others some questions.
    The Belleville News-Democrat found that of the over 250 
inmates transferred to the Tamms Correctional Facility in the 
last 10 years since 1999--of the over 250 inmates--only 6 of 
those went through mental health screening and were placed in 
the prison's special treatment unit for mentally ill prisoners. 
That figure seems extremely low based on the 12 percent figure 
that you mentioned earlier for those who are receiving 
psychotropic medication.
    Mr. Randle. Mr. Chairman, specifically at the Tamms 
Correctional Facility, historically there was a file review 
that would take place as part of the placement process. One of 
the recommendations, as part of my plan to the Governor, 
requires a full mental health evaluation to take place for 
every placement into the Tamms Correctional Facility.
    Chairman Durbin. Thank you.
    Senator Franken.
    Senator Franken. Thank you, Mr. Chairman.
    Mr. Randle, you talked about a disinvestment in community 
mental health services. Do you think that if we fully funded 
these services that we can better manage the mentally ill, 
incarcerate fewer of them, and end up actually saving money for 
the taxpayers while also making our communities safer?
    Mr. Randle. Senator Franken, that is absolutely correct. I 
do believe that one of the key things, especially with our 
population in the State of Illinois that have a mental illness, 
is as part of their release process we give them about a 14-day 
supply of psychotropic medication. Unfortunately, we do not do 
as good of a job linking them with a community mental health 
provider, so in a lot of cases, these offenders, while we may 
do a referral, sometimes it often takes weeks or months before 
they are actually in to see a psychiatrist to have that 
medication continued.
    Unfortunately, by then they have run out of medication. 
They have decompensated and, unfortunately, they wind up in 
jail and ultimately back in prison. Traditionally, these are 
low-level, non-violent offenders who often are accused of theft 
crimes and those sorts of things, but often wind up back in the 
prison system.
    So I think part of this charge is working collaboratively 
with community mental health providers and also the State 
Department of Mental Health in Illinois to recognize that in a 
lot of cases we are dealing with the same individual at 
different points in their life, and work together to share 
information and provide that sustainable linkage when they 
leave.
    Senator Franken. Thank you.
    Judge Zenoff, you talked about mental health courts and 
they are relatively new, and that the research is new, but that 
you have seen real trends. And I am wondering if those 
correspond to results you have seen and research you have seen 
about drug courts.
    Justice Zenoff. I am not as familiar really with the 
research on drug courts. I think drug courts have been found 
certainly to have made a significant difference. I think one 
area that the researchers are looking at with respect to mental 
health courts is whether or not to change some of the treatment 
to mirror in some ways what the treatment is in drug courts--
that is, to address some of the criminogenic factors that have 
to do with recidivism and why people commit crimes. And I think 
they would like to see if that will, in addition to treatment 
for the mental illness, help reduce recidivism and allow people 
to stay out of the criminal justice system.
    Senator Franken. Thank you.
    Mr. Fuller, thank you for co ming in today and for your 
testimony. I am curious about this MICA program, because you 
said that you had been in and out of rehab, right?
    Mr. Fuller. Yes.
    Senator Franken. What was it about the MICA program that 
worked for you? Was it that you were just ready at that point? 
Or was there something about the design of the program that 
made it work for you?
    Mr. Fuller. Well, I think being ready is part of it, but a 
MICA program is a place where you can address substance abuse 
and traditional mental illness in the same physical setting 
basically at the same time. You are connected with peers that 
have similar experiences as you do because you can even find 
discrimination with ``straight substance abusers'' or 
``straight mental illness,'' believe it or not.
    That is the unique part of it, that you are able to address 
the whole person. It is usually a treatment failure when you 
try to separate mental illness from substance abuse. Substance 
abuse is an Axis I diagnosis, and if you do not think it is a 
thought disorder, you have never known an addict before. They 
should be treated the same. They should be in the same 
category. But at this present time, I guess for funding 
reasons, they are separated and have historically been 
separated.
    Senator Franken. Excuse me, but what worked for you is that 
the MICA program combined the discipline of mental illness 
treatment and drug or chemical dependency treatment?
    Mr. Fuller. Yes.
    Senator Franken. Okay. Thank you.
    Mr. Maynard, you talked about collaboration and 
collaborating relationships. Could you talk about the potential 
opportunities for collaboration between the corrections system 
and the Substance Abuse and Mental Health Services 
Administration?
    Mr. Maynard. Yes, sir. I think, Senator Franken, that if 
somebody works in corrections, runs a corrections agency and 
they are not accustomed to collaboration, they better get used 
to it, because we are big agencies in the States, but we have--
we have custody resources, but we have little other resources. 
So I think it is incumbent on us to reach out to substance 
abuse agencies, like in Maryland, the judge mentioned NAMI, 
another group that in all the States I have worked in have been 
an active partner in working with the mentally ill. I think 
SAMHSA is an organization that has the technical credibility. I 
think the more we can get involved with them, the more funding 
that might be available, the more leadership they could 
provide, the more protocol, I think it would be good for our 
organization, for our system.
    I think they have the expertise. We did not come working in 
prisons to be mental health experts. We run the security part 
of it. We looked at education at the Federal level to provide 
educational services. They do an excellent job reaching into 
the prisons. I think that is a model for SAMHSA. They could do 
the same thing. We provide----
    Senator Franken. SAMHSA, once again, addresses both 
substance abuse and mental health at the same time.
    Mr. Maynard. Yes, sir. And I did want to, if I might, Mr. 
Chairman, in talking about the segregation, the Vera Institute 
of Justice is doing some pilot projects with reducing 
segregation, and they did a pilot in the State of Mississippi 
and their segregation population was pretty extensive. I think 
they reduced it probably by one-fourth of what it was. In 
Maryland, we have made a request to Vera to come look at our 
population, because I think we have a large number on 
segregation. I think it just happens, if you do not go back and 
study it and try to figure out ways to reduce it, that it will 
grow. So I think that is something, if we can do some models, 
that might go across the country.
    Senator Franken. Thank you, Mr. Maynard.
    Thank you, Mr. Chairman.
    Chairman Durbin. Mr. Randle, if I understand the 
calculation, we estimate that each prisoner at Tamms costs us 
$64,000 a year. Is that a rough calculation based on the budget 
for Tamms?
    Mr. Randle. Mr. Chairman, that is a number that is used to 
describe the cost.
    Chairman Durbin. Do you think that is close? Does it sound 
close?
    Mr. Randle. I think you have to look at the entire 
operation and the impact that just Tamms has on our entire 
prison system. So, yes, if you look at Tamms in an isolated 
fashion, also if you look at--there are two parts to Tamms. 
There is a 200-bed minimum security camp that provides that 
support. I think that $64,000 figure is just looking at inside 
the C-MAX portion of that facility.
    Chairman Durbin. I see. Mr. Fuller, you can see where you 
can get to $1 million in a hurry with that kind of expenditure.
    Judge Zenoff, to go back to an earlier question here, I do 
not remember the course in law school on psychology and 
psychiatry----
    Justice Zenoff. Nor I.
    Chairman Durbin [continuing]. And psychiatric disorders and 
your clients, civil and criminal. But it appears that the 
intake in this process of justice starts with the law 
enforcement officer, the attorneys, the judges, social workers, 
and ultimately the correctional officers. And I guess the 
issue, I think, Mr. Maynard just referred to was that most 
correctional officers focus on security. And yet if they are 
going to play the role that we expect them to, we need them to 
be more observant of other things that relate to a prisoner's 
well-being that may have a direct impact on security.
    So when you get into this drug court atmosphere--I do not 
know if your background is in psychology, psychiatry, or just--
--
    Justice Zenoff. Not at all.
    Chairman Durbin. Do you feel that our system of justice is 
really equipped to deal with what we have decided as America 
will be our future when it comes to mental health?
    I can recall, just as an aside, that in 1970, then-
Lieutenant Governor Paul Simon took me, a young lawyer fresh 
out of law school, on an onsite visit at the Lincoln State 
School, 30 miles from Springfield--it was a day I will never 
forget as long as I live. It was in the bitter winter, and we 
went up to a building which housed 150 profoundly retarded 
adult males. It was bedlam, pure bedlam. There were two 
supervisors there for 150 people. There were people jumping out 
of the windows in their hospital gowns, people running outside 
in the bitter cold. It is an image I cannot forget, and now I 
think we have decided to replace that horrible image with one 
which is in many respects just as horrible: A corrections 
system which has decided that it will become the largest 
provider of mental health ``services,'' if you can put that in 
quotes, in the Nation.
    Is this the right thing for our system of justice? Is this 
a fair outcome?
    Justice Zenoff. You know, Senator Durbin, I agree with you 
in terms of lawyers and judges not being educated in this 
field. But I do think, given the problem we have before us and 
the job of lawyers and judges to solve human problems, we are 
becoming educated. We are learning to use the resources that we 
have to be able to address the problems.
    I think Mr. Fuller's story and really all of the testimony 
we heard here today is the reason and are the reasons that 
judges are out front, that judges have become leaders in 
communities around the country to address this very human 
problem. I think that the job of judges in this particular area 
is actually to become educated, as I myself did. I did not have 
any background in psychology or psychiatry. I had a mother who 
had Alzheimer's, and at that point I learned a little bit about 
that illness at that time. But actually, to digress 1 minute, 
it was because of a community mental health leader in Rockford, 
Illinois, who walked over to the courthouse and said, ``Open 
your eyes. See what is happening in the Winnebago County Jail. 
See who is cycling in and out of your jail. See why you have an 
overabundance of persons with mental illnesses in jail; why 
your jail is overpopulated,'' that we started to become 
educated.
    And I think the reason that judges have learned about this 
problem is, as I said, it is a very human problem. I think what 
we do need to do is need to use our abilities to convene 
stakeholders in our communities and in the country to address 
the problem and to bring others together to actually keep 
persons with mental illness, with serious mental illnesses, out 
of the criminal justice system so that in the end they do not 
end up in our prisons. We would then have at least fewer people 
with mental illnesses in prison. Thank you.
    Chairman Durbin. Thank you.
    Mr. Fuller, I am going to ask the last question of you. In 
the city of Chicago, which I am honored to represent, on the 
west side around the United Center where the Chicago Bulls and 
Michael Jordan had all their glory, we have more ex-offenders 
than any other section of our State. They are primarily African 
American, and they come to this community, this area for a 
variety of reasons. One of them is that many of the churches 
there have decided to give a helping hand to ex-offenders; and, 
I might add, they have a Congressman, Danny Davis, who has made 
this his passion and his dedicated purpose for serving in 
Congress to deal with this whole question of ex-offenders. And 
I have met with him and with some of the people at the churches 
there, and I know what you are doing today, and I want to give 
you the last word on this.
    What do we need to do to make sure those ex-offenders do 
not commit another crime, do not end up back in jail? I know 
the list is very long, but give me the top two or three things 
that your work will make a significant difference.
    Mr. Fuller. Okay. First, I will say in my written testimony 
I included a document, ``A Call to Action.''
    Chairman Durbin. I read it.
    Mr. Fuller. Please do. Supportive housing, supportive 
employment.
    Chairman Durbin. Now, do you get help when it comes from 
our Government in terms of that housing? I mean, there have 
been questions as to whether Medicaid and Medicare are there 
for ex-offenders, this question about housing.
    Mr. Fuller. Well, the third one is mutual support, peer 
support, and Medicaid does not pay for those services--peer-run 
centers, peer support. Sixty-four thousand for jail, 23,000 for 
supportive housing and a beautiful apartment with onsite case 
managers providing services. You just do the numbers, and it 
makes a whole lot more sense to provide services in the 
community than to send people to jail.
    Chairman Durbin. Thank you.
    I am going to place into the record a long list of written 
statements, and since there is nobody to object, it is going 
in.
    [Laughter.]
    [The information referred to appears as a submission for 
the record.]
    Chairman Durbin. And if there are no further comments, I 
want to thank this panel in particular. This Human Rights and 
the Law Subcommittee was created as a kind of a special and 
risky undertaking, and they said do not step on the Foreign 
Affairs Committee, and be careful that you do not intrude on 
others' jurisdiction.
    As best we can tell, there have not been too many hearings 
on this subject before Congress in the last few years, and I 
think that, as I mentioned earlier, Senator Webb's idea of a 
reform commission, which I have cosponsored, is a step in the 
right direction. But this really is a human rights issue in our 
country, that we have reached this point where this is where 
the mentally ill find themselves more often than not, that you 
would have three jails as the facilities where more mental 
health services are offered than any place in America. We have 
got to open our eyes. If we were ashamed as a Nation over 100 
years ago about the status of the mentally ill, what can we say 
today? What about our generation? What are we doing? What is 
the honest and effective way to give these people a chance and 
to keep our society safe?
    I urge everyone to reflect on the question that Mr. Fuller 
asked in his testimony: Why do they have to be punished so 
severely for so long for being sick? Mr. Fuller's experience 
highlights the failures to provide many persons with mental 
illness who enter our criminal justice system with a meaningful 
opportunity to get well. These failures are costly in terms of 
lost human potential, lost years, the expense of incarceration, 
and the threat to public safety.
    But Mr. Fuller's experience also shows that it is possible 
to design and implement programs that allow people to turn 
their lives around, and thank goodness you are here as proof of 
that today. I appreciate that so much. Making available the 
opportunities that you had to finally turn your life around has 
to be our goal as a Nation. This hearing is adjourned.
    Thank you.
    [Whereupon, at 12:13 p.m., the Subcommittee was adjourned.]
    [Questions and answers and submissions for the record 
follow.]

[GRAPHIC] [TIFF OMITTED] T6207.001

[GRAPHIC] [TIFF OMITTED] T6207.002

[GRAPHIC] [TIFF OMITTED] T6207.003

[GRAPHIC] [TIFF OMITTED] T6207.004

[GRAPHIC] [TIFF OMITTED] T6207.005

[GRAPHIC] [TIFF OMITTED] T6207.006

[GRAPHIC] [TIFF OMITTED] T6207.007

[GRAPHIC] [TIFF OMITTED] T6207.008

[GRAPHIC] [TIFF OMITTED] T6207.009

[GRAPHIC] [TIFF OMITTED] T6207.010

[GRAPHIC] [TIFF OMITTED] T6207.011

[GRAPHIC] [TIFF OMITTED] T6207.012

[GRAPHIC] [TIFF OMITTED] T6207.013

[GRAPHIC] [TIFF OMITTED] T6207.014

[GRAPHIC] [TIFF OMITTED] T6207.015

[GRAPHIC] [TIFF OMITTED] T6207.016

[GRAPHIC] [TIFF OMITTED] T6207.017

[GRAPHIC] [TIFF OMITTED] T6207.018

[GRAPHIC] [TIFF OMITTED] T6207.019

[GRAPHIC] [TIFF OMITTED] T6207.020

[GRAPHIC] [TIFF OMITTED] T6207.021

[GRAPHIC] [TIFF OMITTED] T6207.022

[GRAPHIC] [TIFF OMITTED] T6207.023

[GRAPHIC] [TIFF OMITTED] T6207.024

[GRAPHIC] [TIFF OMITTED] T6207.025

[GRAPHIC] [TIFF OMITTED] T6207.026

[GRAPHIC] [TIFF OMITTED] T6207.027

[GRAPHIC] [TIFF OMITTED] T6207.028

[GRAPHIC] [TIFF OMITTED] T6207.029

[GRAPHIC] [TIFF OMITTED] T6207.030

[GRAPHIC] [TIFF OMITTED] T6207.031

[GRAPHIC] [TIFF OMITTED] T6207.032

[GRAPHIC] [TIFF OMITTED] T6207.033

[GRAPHIC] [TIFF OMITTED] T6207.034

[GRAPHIC] [TIFF OMITTED] T6207.035

[GRAPHIC] [TIFF OMITTED] T6207.036

[GRAPHIC] [TIFF OMITTED] T6207.037

[GRAPHIC] [TIFF OMITTED] T6207.038

[GRAPHIC] [TIFF OMITTED] T6207.039

[GRAPHIC] [TIFF OMITTED] T6207.040

[GRAPHIC] [TIFF OMITTED] T6207.041

[GRAPHIC] [TIFF OMITTED] T6207.042

[GRAPHIC] [TIFF OMITTED] T6207.043

[GRAPHIC] [TIFF OMITTED] T6207.044

[GRAPHIC] [TIFF OMITTED] T6207.045

[GRAPHIC] [TIFF OMITTED] T6207.046

[GRAPHIC] [TIFF OMITTED] T6207.047

[GRAPHIC] [TIFF OMITTED] T6207.048

[GRAPHIC] [TIFF OMITTED] T6207.049

[GRAPHIC] [TIFF OMITTED] T6207.050

[GRAPHIC] [TIFF OMITTED] T6207.051

[GRAPHIC] [TIFF OMITTED] T6207.052

[GRAPHIC] [TIFF OMITTED] T6207.053

[GRAPHIC] [TIFF OMITTED] T6207.054

[GRAPHIC] [TIFF OMITTED] T6207.055

[GRAPHIC] [TIFF OMITTED] T6207.056

[GRAPHIC] [TIFF OMITTED] T6207.057

[GRAPHIC] [TIFF OMITTED] T6207.058

[GRAPHIC] [TIFF OMITTED] T6207.059

[GRAPHIC] [TIFF OMITTED] T6207.060

[GRAPHIC] [TIFF OMITTED] T6207.061

[GRAPHIC] [TIFF OMITTED] T6207.062

[GRAPHIC] [TIFF OMITTED] T6207.063

[GRAPHIC] [TIFF OMITTED] T6207.064

[GRAPHIC] [TIFF OMITTED] T6207.065

[GRAPHIC] [TIFF OMITTED] T6207.066

[GRAPHIC] [TIFF OMITTED] T6207.067

[GRAPHIC] [TIFF OMITTED] T6207.068

[GRAPHIC] [TIFF OMITTED] T6207.069

[GRAPHIC] [TIFF OMITTED] T6207.070

[GRAPHIC] [TIFF OMITTED] T6207.071

[GRAPHIC] [TIFF OMITTED] T6207.072

[GRAPHIC] [TIFF OMITTED] T6207.073

[GRAPHIC] [TIFF OMITTED] T6207.074

[GRAPHIC] [TIFF OMITTED] T6207.075

[GRAPHIC] [TIFF OMITTED] T6207.076

[GRAPHIC] [TIFF OMITTED] T6207.077

[GRAPHIC] [TIFF OMITTED] T6207.078

[GRAPHIC] [TIFF OMITTED] T6207.079

[GRAPHIC] [TIFF OMITTED] T6207.080

[GRAPHIC] [TIFF OMITTED] T6207.081

[GRAPHIC] [TIFF OMITTED] T6207.082

[GRAPHIC] [TIFF OMITTED] T6207.083

[GRAPHIC] [TIFF OMITTED] T6207.084

[GRAPHIC] [TIFF OMITTED] T6207.085

[GRAPHIC] [TIFF OMITTED] T6207.086

[GRAPHIC] [TIFF OMITTED] T6207.087

[GRAPHIC] [TIFF OMITTED] T6207.088

[GRAPHIC] [TIFF OMITTED] T6207.089

[GRAPHIC] [TIFF OMITTED] T6207.090

[GRAPHIC] [TIFF OMITTED] T6207.091

[GRAPHIC] [TIFF OMITTED] T6207.092

[GRAPHIC] [TIFF OMITTED] T6207.093

[GRAPHIC] [TIFF OMITTED] T6207.094

[GRAPHIC] [TIFF OMITTED] T6207.095

[GRAPHIC] [TIFF OMITTED] T6207.096

[GRAPHIC] [TIFF OMITTED] T6207.097

[GRAPHIC] [TIFF OMITTED] T6207.098

[GRAPHIC] [TIFF OMITTED] T6207.099

[GRAPHIC] [TIFF OMITTED] T6207.100

[GRAPHIC] [TIFF OMITTED] T6207.101

[GRAPHIC] [TIFF OMITTED] T6207.102

[GRAPHIC] [TIFF OMITTED] T6207.103

[GRAPHIC] [TIFF OMITTED] T6207.104

[GRAPHIC] [TIFF OMITTED] T6207.105

[GRAPHIC] [TIFF OMITTED] T6207.106

[GRAPHIC] [TIFF OMITTED] T6207.107

[GRAPHIC] [TIFF OMITTED] T6207.108

[GRAPHIC] [TIFF OMITTED] T6207.109

[GRAPHIC] [TIFF OMITTED] T6207.110

[GRAPHIC] [TIFF OMITTED] T6207.111

[GRAPHIC] [TIFF OMITTED] T6207.112

[GRAPHIC] [TIFF OMITTED] T6207.113

[GRAPHIC] [TIFF OMITTED] T6207.114

[GRAPHIC] [TIFF OMITTED] T6207.115

[GRAPHIC] [TIFF OMITTED] T6207.116

[GRAPHIC] [TIFF OMITTED] T6207.117

[GRAPHIC] [TIFF OMITTED] T6207.118

[GRAPHIC] [TIFF OMITTED] T6207.119

[GRAPHIC] [TIFF OMITTED] T6207.120

[GRAPHIC] [TIFF OMITTED] T6207.121

[GRAPHIC] [TIFF OMITTED] T6207.122

[GRAPHIC] [TIFF OMITTED] T6207.123

[GRAPHIC] [TIFF OMITTED] T6207.124

[GRAPHIC] [TIFF OMITTED] T6207.125

[GRAPHIC] [TIFF OMITTED] T6207.126

[GRAPHIC] [TIFF OMITTED] T6207.127

[GRAPHIC] [TIFF OMITTED] T6207.128

[GRAPHIC] [TIFF OMITTED] T6207.129

[GRAPHIC] [TIFF OMITTED] T6207.130

[GRAPHIC] [TIFF OMITTED] T6207.131

[GRAPHIC] [TIFF OMITTED] T6207.132

[GRAPHIC] [TIFF OMITTED] T6207.133

[GRAPHIC] [TIFF OMITTED] T6207.134

[GRAPHIC] [TIFF OMITTED] T6207.135

[GRAPHIC] [TIFF OMITTED] T6207.136

[GRAPHIC] [TIFF OMITTED] T6207.137

[GRAPHIC] [TIFF OMITTED] T6207.138

[GRAPHIC] [TIFF OMITTED] T6207.139

[GRAPHIC] [TIFF OMITTED] T6207.140

[GRAPHIC] [TIFF OMITTED] T6207.141

[GRAPHIC] [TIFF OMITTED] T6207.142

[GRAPHIC] [TIFF OMITTED] T6207.143

[GRAPHIC] [TIFF OMITTED] T6207.144

[GRAPHIC] [TIFF OMITTED] T6207.145

[GRAPHIC] [TIFF OMITTED] T6207.146

[GRAPHIC] [TIFF OMITTED] T6207.147

[GRAPHIC] [TIFF OMITTED] T6207.148

[GRAPHIC] [TIFF OMITTED] T6207.149

[GRAPHIC] [TIFF OMITTED] T6207.150

[GRAPHIC] [TIFF OMITTED] T6207.151

[GRAPHIC] [TIFF OMITTED] T6207.152

[GRAPHIC] [TIFF OMITTED] T6207.153

[GRAPHIC] [TIFF OMITTED] T6207.154

[GRAPHIC] [TIFF OMITTED] T6207.155

[GRAPHIC] [TIFF OMITTED] T6207.156

[GRAPHIC] [TIFF OMITTED] T6207.157

[GRAPHIC] [TIFF OMITTED] T6207.158

[GRAPHIC] [TIFF OMITTED] T6207.159

[GRAPHIC] [TIFF OMITTED] T6207.160

[GRAPHIC] [TIFF OMITTED] T6207.161

[GRAPHIC] [TIFF OMITTED] T6207.162

[GRAPHIC] [TIFF OMITTED] T6207.163

[GRAPHIC] [TIFF OMITTED] T6207.164

[GRAPHIC] [TIFF OMITTED] T6207.165

[GRAPHIC] [TIFF OMITTED] T6207.166

[GRAPHIC] [TIFF OMITTED] T6207.167

[GRAPHIC] [TIFF OMITTED] T6207.168

[GRAPHIC] [TIFF OMITTED] T6207.169

[GRAPHIC] [TIFF OMITTED] T6207.170

[GRAPHIC] [TIFF OMITTED] T6207.171

[GRAPHIC] [TIFF OMITTED] T6207.172

[GRAPHIC] [TIFF OMITTED] T6207.173

[GRAPHIC] [TIFF OMITTED] T6207.174

[GRAPHIC] [TIFF OMITTED] T6207.175

[GRAPHIC] [TIFF OMITTED] T6207.176

[GRAPHIC] [TIFF OMITTED] T6207.177

[GRAPHIC] [TIFF OMITTED] T6207.178

[GRAPHIC] [TIFF OMITTED] T6207.179

[GRAPHIC] [TIFF OMITTED] T6207.180

[GRAPHIC] [TIFF OMITTED] T6207.181

[GRAPHIC] [TIFF OMITTED] T6207.182

[GRAPHIC] [TIFF OMITTED] T6207.183

[GRAPHIC] [TIFF OMITTED] T6207.184

[GRAPHIC] [TIFF OMITTED] T6207.185

[GRAPHIC] [TIFF OMITTED] T6207.186

[GRAPHIC] [TIFF OMITTED] T6207.187

[GRAPHIC] [TIFF OMITTED] T6207.188

[GRAPHIC] [TIFF OMITTED] T6207.189

[GRAPHIC] [TIFF OMITTED] T6207.190

[GRAPHIC] [TIFF OMITTED] T6207.191

[GRAPHIC] [TIFF OMITTED] T6207.192

[GRAPHIC] [TIFF OMITTED] T6207.193

[GRAPHIC] [TIFF OMITTED] T6207.194

[GRAPHIC] [TIFF OMITTED] T6207.195

[GRAPHIC] [TIFF OMITTED] T6207.196

[GRAPHIC] [TIFF OMITTED] T6207.197

[GRAPHIC] [TIFF OMITTED] T6207.198

[GRAPHIC] [TIFF OMITTED] T6207.199

[GRAPHIC] [TIFF OMITTED] T6207.200

[GRAPHIC] [TIFF OMITTED] T6207.201

[GRAPHIC] [TIFF OMITTED] T6207.202

[GRAPHIC] [TIFF OMITTED] T6207.203

[GRAPHIC] [TIFF OMITTED] T6207.204

[GRAPHIC] [TIFF OMITTED] T6207.205

[GRAPHIC] [TIFF OMITTED] T6207.206

[GRAPHIC] [TIFF OMITTED] T6207.207

[GRAPHIC] [TIFF OMITTED] T6207.208

[GRAPHIC] [TIFF OMITTED] T6207.209

[GRAPHIC] [TIFF OMITTED] T6207.210

[GRAPHIC] [TIFF OMITTED] T6207.211

[GRAPHIC] [TIFF OMITTED] T6207.212

[GRAPHIC] [TIFF OMITTED] T6207.213

[GRAPHIC] [TIFF OMITTED] T6207.214

[GRAPHIC] [TIFF OMITTED] T6207.215

[GRAPHIC] [TIFF OMITTED] T6207.216

[GRAPHIC] [TIFF OMITTED] T6207.217

[GRAPHIC] [TIFF OMITTED] T6207.218

[GRAPHIC] [TIFF OMITTED] T6207.219

[GRAPHIC] [TIFF OMITTED] T6207.220

[GRAPHIC] [TIFF OMITTED] T6207.221

[GRAPHIC] [TIFF OMITTED] T6207.222

[GRAPHIC] [TIFF OMITTED] T6207.223

[GRAPHIC] [TIFF OMITTED] T6207.224

[GRAPHIC] [TIFF OMITTED] T6207.225

[GRAPHIC] [TIFF OMITTED] T6207.226

[GRAPHIC] [TIFF OMITTED] T6207.227

[GRAPHIC] [TIFF OMITTED] T6207.228

[GRAPHIC] [TIFF OMITTED] T6207.229

[GRAPHIC] [TIFF OMITTED] T6207.230

[GRAPHIC] [TIFF OMITTED] T6207.231

[GRAPHIC] [TIFF OMITTED] T6207.232

[GRAPHIC] [TIFF OMITTED] T6207.233

[GRAPHIC] [TIFF OMITTED] T6207.234

[GRAPHIC] [TIFF OMITTED] T6207.235

[GRAPHIC] [TIFF OMITTED] T6207.236

[GRAPHIC] [TIFF OMITTED] T6207.237

[GRAPHIC] [TIFF OMITTED] T6207.238

[GRAPHIC] [TIFF OMITTED] T6207.239

[GRAPHIC] [TIFF OMITTED] T6207.240

[GRAPHIC] [TIFF OMITTED] T6207.241

[GRAPHIC] [TIFF OMITTED] T6207.242

[GRAPHIC] [TIFF OMITTED] T6207.243

[GRAPHIC] [TIFF OMITTED] T6207.244

[GRAPHIC] [TIFF OMITTED] T6207.245

[GRAPHIC] [TIFF OMITTED] T6207.246

[GRAPHIC] [TIFF OMITTED] T6207.247

[GRAPHIC] [TIFF OMITTED] T6207.248

[GRAPHIC] [TIFF OMITTED] T6207.249

[GRAPHIC] [TIFF OMITTED] T6207.250

[GRAPHIC] [TIFF OMITTED] T6207.251

[GRAPHIC] [TIFF OMITTED] T6207.252

[GRAPHIC] [TIFF OMITTED] T6207.253

[GRAPHIC] [TIFF OMITTED] T6207.254

[GRAPHIC] [TIFF OMITTED] T6207.255

[GRAPHIC] [TIFF OMITTED] T6207.256

[GRAPHIC] [TIFF OMITTED] T6207.257

[GRAPHIC] [TIFF OMITTED] T6207.258

[GRAPHIC] [TIFF OMITTED] T6207.259

[GRAPHIC] [TIFF OMITTED] T6207.260

[GRAPHIC] [TIFF OMITTED] T6207.261

[GRAPHIC] [TIFF OMITTED] T6207.262

[GRAPHIC] [TIFF OMITTED] T6207.263

[GRAPHIC] [TIFF OMITTED] T6207.264

[GRAPHIC] [TIFF OMITTED] T6207.265

[GRAPHIC] [TIFF OMITTED] T6207.266

[GRAPHIC] [TIFF OMITTED] T6207.267

[GRAPHIC] [TIFF OMITTED] T6207.268

[GRAPHIC] [TIFF OMITTED] T6207.269

[GRAPHIC] [TIFF OMITTED] T6207.270

[GRAPHIC] [TIFF OMITTED] T6207.271

[GRAPHIC] [TIFF OMITTED] T6207.272

[GRAPHIC] [TIFF OMITTED] T6207.273

[GRAPHIC] [TIFF OMITTED] T6207.274

[GRAPHIC] [TIFF OMITTED] T6207.275

[GRAPHIC] [TIFF OMITTED] T6207.276

[GRAPHIC] [TIFF OMITTED] T6207.277

[GRAPHIC] [TIFF OMITTED] T6207.278

[GRAPHIC] [TIFF OMITTED] T6207.279

[GRAPHIC] [TIFF OMITTED] T6207.280

[GRAPHIC] [TIFF OMITTED] T6207.281

[GRAPHIC] [TIFF OMITTED] T6207.282

[GRAPHIC] [TIFF OMITTED] T6207.283

[GRAPHIC] [TIFF OMITTED] T6207.284

[GRAPHIC] [TIFF OMITTED] T6207.285

[GRAPHIC] [TIFF OMITTED] T6207.286

[GRAPHIC] [TIFF OMITTED] T6207.287

[GRAPHIC] [TIFF OMITTED] T6207.288

[GRAPHIC] [TIFF OMITTED] T6207.289

[GRAPHIC] [TIFF OMITTED] T6207.290

[GRAPHIC] [TIFF OMITTED] T6207.291

[GRAPHIC] [TIFF OMITTED] T6207.292

[GRAPHIC] [TIFF OMITTED] T6207.293

[GRAPHIC] [TIFF OMITTED] T6207.294

[GRAPHIC] [TIFF OMITTED] T6207.295

[GRAPHIC] [TIFF OMITTED] T6207.296

[GRAPHIC] [TIFF OMITTED] T6207.297

[GRAPHIC] [TIFF OMITTED] T6207.298

[GRAPHIC] [TIFF OMITTED] T6207.299

[GRAPHIC] [TIFF OMITTED] T6207.300

[GRAPHIC] [TIFF OMITTED] T6207.301

[GRAPHIC] [TIFF OMITTED] T6207.302

[GRAPHIC] [TIFF OMITTED] T6207.303

[GRAPHIC] [TIFF OMITTED] T6207.304

[GRAPHIC] [TIFF OMITTED] T6207.305

[GRAPHIC] [TIFF OMITTED] T6207.306

[GRAPHIC] [TIFF OMITTED] T6207.307

[GRAPHIC] [TIFF OMITTED] T6207.308

[GRAPHIC] [TIFF OMITTED] T6207.309

[GRAPHIC] [TIFF OMITTED] T6207.310

[GRAPHIC] [TIFF OMITTED] T6207.311

[GRAPHIC] [TIFF OMITTED] T6207.312

[GRAPHIC] [TIFF OMITTED] T6207.313

[GRAPHIC] [TIFF OMITTED] T6207.314

[GRAPHIC] [TIFF OMITTED] T6207.315

[GRAPHIC] [TIFF OMITTED] T6207.316

[GRAPHIC] [TIFF OMITTED] T6207.317

[GRAPHIC] [TIFF OMITTED] T6207.318

[GRAPHIC] [TIFF OMITTED] T6207.319

[GRAPHIC] [TIFF OMITTED] T6207.320

[GRAPHIC] [TIFF OMITTED] T6207.321

[GRAPHIC] [TIFF OMITTED] T6207.322

[GRAPHIC] [TIFF OMITTED] T6207.323

[GRAPHIC] [TIFF OMITTED] T6207.324

[GRAPHIC] [TIFF OMITTED] T6207.325

[GRAPHIC] [TIFF OMITTED] T6207.326

[GRAPHIC] [TIFF OMITTED] T6207.327

[GRAPHIC] [TIFF OMITTED] T6207.328

[GRAPHIC] [TIFF OMITTED] T6207.329

[GRAPHIC] [TIFF OMITTED] T6207.330

[GRAPHIC] [TIFF OMITTED] T6207.331

[GRAPHIC] [TIFF OMITTED] T6207.332

[GRAPHIC] [TIFF OMITTED] T6207.333

[GRAPHIC] [TIFF OMITTED] T6207.334

[GRAPHIC] [TIFF OMITTED] T6207.335

[GRAPHIC] [TIFF OMITTED] T6207.336

[GRAPHIC] [TIFF OMITTED] T6207.337

[GRAPHIC] [TIFF OMITTED] T6207.338

[GRAPHIC] [TIFF OMITTED] T6207.339

[GRAPHIC] [TIFF OMITTED] T6207.340

[GRAPHIC] [TIFF OMITTED] T6207.341

[GRAPHIC] [TIFF OMITTED] T6207.342

[GRAPHIC] [TIFF OMITTED] T6207.343

[GRAPHIC] [TIFF OMITTED] T6207.344

[GRAPHIC] [TIFF OMITTED] T6207.345

[GRAPHIC] [TIFF OMITTED] T6207.346

[GRAPHIC] [TIFF OMITTED] T6207.347

[GRAPHIC] [TIFF OMITTED] T6207.348

[GRAPHIC] [TIFF OMITTED] T6207.349

[GRAPHIC] [TIFF OMITTED] T6207.350

[GRAPHIC] [TIFF OMITTED] T6207.351

[GRAPHIC] [TIFF OMITTED] T6207.352

[GRAPHIC] [TIFF OMITTED] T6207.353

[GRAPHIC] [TIFF OMITTED] T6207.354

[GRAPHIC] [TIFF OMITTED] T6207.355

[GRAPHIC] [TIFF OMITTED] T6207.356

[GRAPHIC] [TIFF OMITTED] T6207.357

[GRAPHIC] [TIFF OMITTED] T6207.358

[GRAPHIC] [TIFF OMITTED] T6207.359

[GRAPHIC] [TIFF OMITTED] T6207.360

[GRAPHIC] [TIFF OMITTED] T6207.361

[GRAPHIC] [TIFF OMITTED] T6207.362

[GRAPHIC] [TIFF OMITTED] T6207.363

[GRAPHIC] [TIFF OMITTED] T6207.364

[GRAPHIC] [TIFF OMITTED] T6207.365

[GRAPHIC] [TIFF OMITTED] T6207.366

[GRAPHIC] [TIFF OMITTED] T6207.367

[GRAPHIC] [TIFF OMITTED] T6207.368

[GRAPHIC] [TIFF OMITTED] T6207.369

[GRAPHIC] [TIFF OMITTED] T6207.370

[GRAPHIC] [TIFF OMITTED] T6207.371

[GRAPHIC] [TIFF OMITTED] T6207.372

[GRAPHIC] [TIFF OMITTED] T6207.373

[GRAPHIC] [TIFF OMITTED] T6207.374

[GRAPHIC] [TIFF OMITTED] T6207.375

[GRAPHIC] [TIFF OMITTED] T6207.376

[GRAPHIC] [TIFF OMITTED] T6207.377

[GRAPHIC] [TIFF OMITTED] T6207.378

[GRAPHIC] [TIFF OMITTED] T6207.379

[GRAPHIC] [TIFF OMITTED] T6207.380

[GRAPHIC] [TIFF OMITTED] T6207.381

[GRAPHIC] [TIFF OMITTED] T6207.382

[GRAPHIC] [TIFF OMITTED] T6207.383

[GRAPHIC] [TIFF OMITTED] T6207.384

[GRAPHIC] [TIFF OMITTED] T6207.385

[GRAPHIC] [TIFF OMITTED] T6207.386

[GRAPHIC] [TIFF OMITTED] T6207.387

[GRAPHIC] [TIFF OMITTED] T6207.388

[GRAPHIC] [TIFF OMITTED] T6207.389

[GRAPHIC] [TIFF OMITTED] T6207.390

[GRAPHIC] [TIFF OMITTED] T6207.391

[GRAPHIC] [TIFF OMITTED] T6207.392

[GRAPHIC] [TIFF OMITTED] T6207.393

[GRAPHIC] [TIFF OMITTED] T6207.394

[GRAPHIC] [TIFF OMITTED] T6207.395

[GRAPHIC] [TIFF OMITTED] T6207.396

[GRAPHIC] [TIFF OMITTED] T6207.397

[GRAPHIC] [TIFF OMITTED] T6207.398

[GRAPHIC] [TIFF OMITTED] T6207.399

[GRAPHIC] [TIFF OMITTED] T6207.400

[GRAPHIC] [TIFF OMITTED] T6207.401

[GRAPHIC] [TIFF OMITTED] T6207.402

[GRAPHIC] [TIFF OMITTED] T6207.403

[GRAPHIC] [TIFF OMITTED] T6207.404

[GRAPHIC] [TIFF OMITTED] T6207.405

[GRAPHIC] [TIFF OMITTED] T6207.406

[GRAPHIC] [TIFF OMITTED] T6207.407

[GRAPHIC] [TIFF OMITTED] T6207.408

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
